<html>
<title> - RESTORING JOBS, COASTAL VIABILITY, AND ECONOMIC RESILIENCE IN THE GULF OF MEXICO: H.R. 3096, THE RESOURCES AND ECOSYSTEMS SUSTAINABILITY, TOURIST OPPORTUNITIES, AND REVIVED ECONOMIES OF THE GULF COAST STATES ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








                 RESTORING JOBS, COASTAL VIABILITY, AND
               ECONOMIC RESILIENCE IN THE GULF OF MEXICO:
                H.R. 3096, THE RESOURCES AND ECOSYSTEMS
               SUSTAINABILITY, TOURIST OPPORTUNITIES, AND
                  REVIVED ECONOMIES OF THE GULF COAST
                           STATES ACT OF 2011

=======================================================================

                                (112-66)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

71-531 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY
                               Panel One

Hon. Pete Olson, a Representative in Congress from the State of 
  Texas..........................................................    20
Hon. Jeff Miller, a Representative in Congress from the State of 
  Florida........................................................    20
Hon. Steven M. Palazzo, a Representative in Congress from the 
  State of Mississippi...........................................    20
Hon. Jo Bonner, a Representative in Congress from the State of 
  Alabama........................................................    20
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana...................................................    20

                               Panel Two

Craig A. Bennett, Director, National Pollution Funds Center, 
  United States Coast Guard......................................    35
Tony Penn, Deputy Chief, Assessment and Restoration Division, 
  Office of Response and Restoration, National Oceanic and 
  Atmospheric Administration.....................................    35

                              Panel Three

Julian MacQueen, Chief Executive Officer, Innisfree Hotels, 
  Incorporated...................................................    49
Garret Graves, Chair, Coastal Protection and Restoration 
  Authority of Louisiana.........................................    49
Hon. Robert Craft, Mayor, City of Gulf Shores, Alabama...........    49
Bill Williams, Commissioner, Gulf County, Florida................    49
Robert H. Weisberg, Ph.D., Professor of Physical Oceanography, 
  University of South Florida....................................    49
Michael C. Voisin, Motivatit Seafoods, Houma, Louisiana..........    49

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Timothy H. Bishop, of New York..............................    66
Hon. Rick Larsen, of Wasington...................................    69
Hon. Cedric L. Richmond, of Louisiana............................    71

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Pete Olson..................................................    73
Hon. Jeff Miller.................................................    74
Hon. Steven M. Palazzo...........................................    76
Hon. Jo Bonner...................................................    79
Hon. Steve Scalise...............................................    82
Craig A. Bennett.................................................    85
Tony Penn........................................................    90
Julian MacQueen..................................................    97
Garret Graves....................................................   101
Hon. Robert Craft................................................   115
Bill Williams....................................................   121
Robert H. Weisberg, Ph.D.........................................   125
Michael C. Voisin................................................   132

                       SUBMISSIONS FOR THE RECORD

Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, request to submit the following into the 
  record:

        Hon Kathy Castor, a Representative in Congress from the 
          State of Florida, letter to Hon. John L. Mica, 
          Chairman, and Nick J. Rahall II, Ranking Member, 
          Committee on Transportation and Infrastructure, 
          December 6, 2011.......................................     3
        Tim Richardson, Director of Government Affairs and Alaska 
          Program, American Land Conservancy, ``Why Habitat 
          Conservation was a Cornerstone of Exxon Valdez 
          Restoration,'' written testimony.......................     6
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, request to submit the following letters in 
  support of S. 1400 and H.R. 3096, the RESTORE Act, into the 
  record:

        Letter from Greater Houston Partnership; Chamber 
          Southwest Louisiana; Greater New Orleans, Inc.; 
          Partners for Stennis-Hancock Chamber of Commerce; 
          Mobile Area Chamber of Commerce; and Pensacola Bay Area 
          Chamber of Commerce; to Senator Harry Reid, Senator 
          Mitch McConnell, Representative John A. Boehner, 
          Representative Nancy Pelosi, Representative Eric 
          Cantor, Representative Steny H. Hoyer, Representative 
          Doc Hastings, Representative Edward J. Markey, 
          Representative John L. Mica, and Representative Nick J. 
          Rahall II, November 9, 2011............................    27
        Letter from American Fisheries Society; American Fly 
          Fishing Trade Association; American Sportfishing 
          Association; Association of Fish and Wildlife Agencies; 
          B.A.S.S., LLC; Berkley Conservation Institute, Pure 
          Fishing; Center for Coastal Conservation; Coastal 
          Conservation Association; Congressional Sportsmen's 
          Foundation; International Game Fish Association; 
          National Marine Manufacturers Association; Shimano 
          Sport Fisheries Initiative; and Theodore Roosevelt 
          Conservation Partnership; to Representative John L. 
          Mica and Representative Nick J. Rahall II, November 1, 
          2011...................................................    29
        Letter from Marco A. Giamberardino, MPA, Senior Director, 
          Federal and Heavy Construction Division, Associated 
          General Contractors of America, to Representative Steve 
          Scalise, October 17, 2011..............................    30
        Letter from Stan Harris, President and CEO, Louisiana 
          Restaurant Association, to Representative Steve 
          Scalise, October 17, 2011..............................    31
        Letter from Louisiana Restaurant Association; 
          Southeastern Fisheries Association; Texas Shrimp 
          Association; Louisiana Seafood Promotion and Marketing 
          Board; National Fisheries Institute; Gulf Oyster 
          Industry Council; and Louisiana Seafood Processors 
          Council; to Representative John A. Boehner and 
          Representative Nancy Pelosi, November 10, 2011.........    32
United States Coast Guard, response to request for information on 
  oil spill capability questions raised by Hon. Blake Farenthold, 
  a Representative in Congress from the State of Texas:

        Four Coast Guard projects to enhance the Service's 
          response to a Spill of National Significance...........    44
        Cost of the four projects................................    45
        Funds allocated for 2012 Coast Guard oil spill response 
          initiatives............................................    45

                         ADDITION TO THE RECORD

Department of the Interior, written statement....................   136




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
RESTORING JOBS, COASTAL VIABILITY, AND ECONOMIC RESILIENCE IN THE GULF 
  OF MEXICO: H.R. 3096, THE RESOURCES AND ECOSYSTEMS SUSTAINABILITY, 
 TOURIST OPPORTUNITIES, AND REVIVED ECONOMIES OF THE GULF COAST STATES 
                              ACT OF 2011

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
Room 2167, Rayburn House Office Building, Hon. John Mica 
(Chairman of the committee) presiding.
    Mr. Mica. I would like everyone to take their seats, and we 
will call the committee--subcommittee to order. We will try to 
get started here. I expect Mr. Gibbs in just a minute.
    Welcome this morning to the House Committee on 
Transportation and Infrastructure hearing on the subject 
``Restoring Jobs, Coastal Viability, and Economic Resilience in 
the Gulf of Mexico: H.R. 3096, the Resources and Ecosystems 
Sustainability, Tourist Opportunities, and Revived Economies of 
the Gulf States Act of 2011.''
    I see they have scheduled today three panels. The first one 
will be Members of Congress. And I would like to welcome them. 
As I said, Mr. Gibbs will be here shortly, but I wanted to go 
ahead and, in the interest of time, get this hearing started.
    The order of business will be opening statements by members 
of our panel, and then we will hear from the Members who have 
requested to testify this morning.
    First let me say that I was approached by many Members--and 
you will hear from some of them today--to enlist my support for 
the measure which I described. And I won't take a half-hour to 
recite the title of the bill again, but in listening to Members 
and in my position as chair of the committee, I understand 
their concerns in trying to make their States and the areas 
they represent whole.
    The oil spill incident that we had in the gulf was a 
horrendous tragedy impacting lives dramatically, hurting 
economies, destroying some of the ecosystem and doing damage to 
the economies in the whole region and the United States.
    The bill that has been crafted--and there have been several 
proposals I have heard dividing up any awards that may result 
here from litigation--are crafted primarily, I think, right now 
to the benefit of the Gulf States who secured--or rather, 
endured the primary damage. I thought what it would be best to 
do is to, rather than lend my support to a particular measure 
or division of some of those awards at this point, was to hear 
everyone out in open forum. And I hope to accomplish that. And 
we can hear from the Members, and they can provide for the 
record and, for what I hope to be a fair resolution of whatever 
proposal we come up with, their viewpoint and their--express 
their concerns on behalf of their constituencies.
    I, in turn, hold a position as chair of the committee, and 
somebody has to represent--even though I represent 1 district 
in Florida out of, right now, 25, someone has to represent the 
people of the United States in this division again, and try--
and this attempt to make everyone whole, including the people 
of the United States.
    So, it is my hope that we can take from this testimony a 
good assessment of who has met their obligations in, first of 
all, trying to make folks whole after a very difficult 
situation. And then, if there is a division of any award, that 
it be done fairly and equitably, both among those impacted and 
on the basis of the damage they sustained, or that they have 
not been made whole for.
    It has been our intent in the committee to try to ensure 
that those responsible for the spill are held accountable, and 
it falls on them to, again, make whole and repair, as best they 
can, the damage. And also compensate the United States and the 
taxpayers for the cost incurred. So, that is the purpose of 
today's hearing. And I appreciate Members coming before us, and 
we will try to sort this out as best we can, be fair and 
equitable to all parties, including the United States 
taxpayers, who absorbed a great deal of cost and also took on 
the responsibility for the--managing the cleanup and other very 
expensive enterprises for which the United States probably has 
not been made whole.
    So, with that, that is those comments, let me yield--I 
guess Mrs. Napolitano, if you are ready--Ms. Johnson, are you 
ready? The gentlelady from Texas is recognized.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
And thank you for holding this hearing and giving our 
colleagues an opportunity to testify.
    I will not take up any time away from their time, but I 
would like to ask unanimous consent to place in the record a 
letter from Congresswoman Castor. And two, a testimony from the 
American Land Conservancy. So, if you can accept that under 
unanimous consent, then I will yield back my time.
    Mr. Gibbs. [presiding.] So ordered.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Ms. Johnson of Texas. Thank you very much.
    Mr. Gibbs. Thank you for your indulgence here, while we get 
started. I am sitting in for Mr.--Chairman Mica. Welcome to the 
committee today, and I will start with my opening statement.
    The Deepwater Horizon oil spill was and continues to be a 
tremendous tragedy for the gulf coast and the Nation, as a 
whole. Over 87 days we all awaited anxiously as responders 
battled nature, logistics, and the natural limitations of 
technology to secure the well head.
    Like all of you, I felt a tremendous amount of relief when 
the well was finally secured. However, as you all know, the 
response did not end there. The efforts to mitigate the impact 
of the spill are ongoing today, and will continue for years to 
come. I fully support the ongoing restoration to repair the 
damage caused by the oil spill, and I know the gulf coast will 
bounce back stronger than ever.
    However, I do have some concerns about this specific piece 
of legislation. The responsible parties have already agreed to 
fully pay the cost of the spill response, damages, and 
restoration activities to individuals and businesses, 
environmental trustees in the Gulf Coast States. That could 
total over $40 billion.
    In addition, the State and local governments of the gulf 
coast currently receive 50 percent of the revenues for offshore 
drilling in the gulf, and use that funding for coastal 
restoration projects. The total cost is over $25 million, 
annually.
    Finally, the gulf coast has received billions of dollars 
for flood damage reduction projects in response to Hurricane 
Katrina, almost $15 billion of which went to projects in the 
vicinity of New Orleans. Now some are seeking billions in the 
Deepwater Horizon Clean Water Act penalties for those same 
activities. I have some concerns with the precedent that sets.
    Additionally, the language, as drafted, could potentially 
fund restoration projects with penalty money, allowing the 
responsible party to avoid payment under the Oil Pollution Act. 
The bill also comes with serious cost implications. CBO has 
scored the Senate version of this bill at $1.2 billion.
    And finally, the bill would redirect the penalties from the 
Oil Spill Liability Trust Fund to the States. The fund 
currently has a balance of $2.3 billion. Meanwhile, the cost of 
the Deepwater Horizon spill could total over $40 billion. 
Redirecting these penalties away from the fund could undermine 
efforts to respond to future spills, where the responsible 
party is either insolvent or is operating in the foreign 
waters, such as Cuba.
    I would like to thank the Members of the panel and I would 
like to now represent--recognize Representative Napolitano for 
any opening statements you may have.
    Mrs. Napolitano. Thank you, Mr. Chair. I don't have 
questions of the Members, but I am glad this hearing is going 
to shed a little more light on the issue that brought such a 
great tragedy to the Gulf States.
    I do ask for unanimous consent the statements from the 
members of the committee who were not able to make it be 
entered into the record.
    Mr. Gibbs. So ordered.
    Mrs. Napolitano. Thank you. And with that, I yield back.
    Mr. Gibbs. OK. At this time we will recognize our first 
panel of Members of Congress. I think the plan here is just to 
have your statements and not have questions. I think that is 
what we decided earlier on. So I will start with Honorable 
Olson. Welcome.

TESTIMONY OF HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM 
   THE STATE OF TEXAS; HON. JEFF MILLER, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF FLORIDA; HON. STEVEN M. PALAZZO, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSISSIPPI; HON. 
   JO BONNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
 ALABAMA; AND HON. STEVE SCALISE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Olson. Thank you, Chairman Gibbs and Ranking Member 
Napolitano, for holding this hearing to examine the importance 
of the gulf RESTORE Act. Seated before you are five Members 
that represent the people who work and live in the Gulf States. 
And while each of us were impacted differently by the Deepwater 
Horizon spill, we have worked together to build a consensus to 
best address the challenges facing our States.
    When considering the economic recovery needs of the gulf 
coast, a one-size-fits-all approach won't work. Gulf coast 
communities know what they need for recovery. It is critical 
that any economic response reflects local priorities.
    In the 22nd Congressional District of Texas, which I 
represent, a significant portion of jobs are connected to 
manufacturers and small companies that rely on the offshore 
energy industry. This is an industry still reeling from the 
Obama administration's moratorium on deep water drilling in the 
Gulf of Mexico. The moratorium was only supposed to affect deep 
water drilling. But in reality, it impacted shallow water 
permits, as well.
    As a result, family-owned companies with generations of 
experience lost work as the drilling operations they supported 
moved out of the Gulf of Mexico. Hundreds of thousands of 
industrial, engineering, manufacturing, construction, and 
support jobs were impacted. The drilling moratorium was--has 
technically been lifted. But the de facto moratorium, also 
known as a ``permitorium,'' remains through the slow permitting 
process with devastating economic consequences.
    There have been signs of recovery. But jobs in the Gulf of 
Mexico are still well below the levels before the Deepwater 
Horizon accident. While offshore activities finally expected to 
return to pre-moratorium levels by mid-next year, we are still 
well below projected levels.
    The RESTORE Act will ensure that each State can address 
their specific recovery needs. Passing the RESTORE Act will 
bring us one step closer to the long-term ecological and 
economic recovery that the Gulf States most directly hurt by 
the spill desperately need. This bill and its Senate campaign 
will ensure a full recovery from the spill.
    As you hear testimony from the expert witnesses here today, 
I ask that you keep something in mind. Reversing the effects of 
the Deepwater Horizon is not just a regional interest. It is a 
national priority. The Gulf of Mexico supplies 30 percent of 
our Nation's energy, and is a powerful economic engine.
    The damage that occurred in the Gulf of Mexico--communities 
along the gulf coast should be able to allocate the penalty 
money where it will be most beneficial, without bureaucratic 
interference.
    I thank you for allowing me to testify before you today, 
and I look forward to working with this committee as the 
RESTORE Act moves through the committee process. I yield back.
    Mr. Gibbs. I thank you.
    Mr. Miller, Representative Miller, welcome.
    Mr. Miller of Florida. Thank you very much, Mr. Chairman. 
First I would like to, with all due respect, set the record 
straight. BP and the responsible parties have not, and in many 
cases do not, intend to make many of the individuals that were 
harmed economically especially whole in this instance.
    And I would also like the record to reflect that Florida 
gets zero revenue from any leases or any production in the Gulf 
of Mexico.
    I want to thank the other Members that are sitting here at 
the table today. It is a diverse group. And the fact that we 
were able to come together and be able to cosponsor a bill that 
was authored by our good friend, Mr. Scalise, who has talked 
about how important this RESTORE Act is for the gulf coast--not 
only the gulf coast, but also for the United States of America.
    This bill is about one thing, and it is restoring the gulf 
coast from the devastating--and I mean devastating--effects of 
the Deepwater Horizon spill in 2010. The fact that we are here 
today, almost 2 years later, still talking about the impacts of 
the spill shows just how widespread the disaster was for our 
communities.
    And you are going to hear about just how costly the effects 
of the spill were from local leaders, local economists, 
businesses, and environmental researchers in subsequent panels, 
so I am not going to go into what they will be testifying about 
this morning.
    You all know that oil on the beaches of northwest Florida 
drove the tourism industry over a cliff. And you know that oil 
is still being cleaned up in the marshes of Louisiana, and 
occasionally along the gulf coast, to the east. So instead, I 
want to make clear what this bill is not.
    This is not a handout or a backfill for local and State 
budgets. The RESTORE Act is about restoring the gulf coast from 
the worst oil spill in American history. As we have seen from 
the lingering effects of Exxon Valdez, these effects will be 
felt for years, if not for decades to come. The Federal 
Government has stepped in to help clean up the environmental 
damage, and the responsible parties set up a claims facility 
for individuals and businesses that were harmed.
    However, more needs to be done. More needs to be done to 
restore the environment that will be damaged for years to come. 
But frankly, there is already a mechanism set forth in the law 
requiring the responsible parties to pay for and take care of 
environmental cleanup. There is no such statutory requirement 
to compensate for economic damages. There is not a mechanism to 
restore the countless small businesses that have already gone 
out of business because of the Deepwater Horizon spill. There 
is not a mechanism to help the people who lost jobs, lost their 
homes, lost families because of the spill. You either roll the 
dice with the BP Feinberg claims facility, or you take your 
chances in court.
    The RESTORE Act fixes the imbalance by creating a way to 
rebuild local and State economies that took such a tremendous 
hit from the oil spill. And the RESTORE Act is the right thing 
to do. It does force the responsible parties to take care of 
the damage that they caused. This damage took place along the 
gulf coast and the fines paid for the damage should be returned 
to the gulf coast. The RESTORE Act will help restore us from 
the Deepwater Horizon disaster. And I would hope that this 
committee will take up this bill as quickly as possible. And I 
appreciate the opportunity to testify.
    Mr. Gibbs. Thank you.
    Representative Palazzo, the floor is yours. Welcome.
    Mr. Palazzo. Thank you, Mr. Chairman, Ranking Member, 
members of this committee. Thank you for the opportunity to 
testify this morning about this critical piece of legislation. 
The Gulf of Mexico has been a leader in American oil production 
for nearly 75 years. I am proud to say Mississippi has played a 
significant role in the exploration and production of oil and 
gas in America. In fact, Chevron USA operates its largest 
American refinery in Pascagoula, Mississippi. Many generations 
of Mississippians, including myself, have benefitted from the 
good-paying jobs provided by the oil and gas industry.
    Mississippi has also assumed the environmental 
responsibility that comes with the economic rewards. For 
decades, coastal residents have lived with the potential and 
real liabilities of the oil and gas industry so our region and 
the country could prosper economically.
    The Deepwater Horizon oil spill in 2010 dealt a serious 
blow to our gulf coast environment and our economy. It is now 
time to seize an opportunity to repair and restore not only the 
damages from the Deepwater Horizon oil spill, but the decades 
of cumulative impacts we have endured, as a region. The RESTORE 
Act allows us to do this through Clean Water Act fines and not 
taxpayer money.
    Under current law, responsible parties are required to pay 
fines for each barrel of oil spilled into the water. Without 
congressional action, these penalties will go toward unrelated 
Federal spending, and leave the necessary long-term restoration 
of our environment undone.
    The RESTORE Act provides Gulf States with the flexibility 
necessary to address long-term environmental and economic 
restoration issues as they arise. The continued environmental 
deterioration of the gulf coast poses a growing threat to 
ecosystems that support not only the regional communities and 
cultures, but also our Nation's most critical energy, shipping, 
tourism, commercial, seafood, and other industries.
    Two official reports on the spill, one conducted by Navy 
Secretary and former Mississippi Governor, Ray Mabus, and the 
other from the bipartisan National Commission on the BP 
Deepwater Horizon Oil Spill and Offshore Drilling, recommended 
that CWA penalties be dedicated to gulf coast restoration.
    The RESTORE Act is a unique opportunity for healing. It 
will help rebuild and strengthen our gulf coast ecosystems, and 
it will also support America's economic recovery. I strongly 
believe that recovery along the gulf coast can lead to recovery 
around the United States. Many of our Nation's key economic 
resources depend on the gulf's delicate and vulnerable 
ecosystem. A healthy gulf coast ecosystem means a healthy 
American economy.
    Let me provide a few examples. Gulf energy helps power 
America. Nearly one-third of domestic oil production comes from 
the Gulf of Mexico. Ports and other infrastructure supported by 
the environment are necessary in keeping this industry 
functioning. As of now, the gulf is home to 10 of our Nation's 
15 largest ports by tonnage, and there is a $621 million port 
expansion plan in Gulfport, Mississippi.
    The Gulf of Mexico produces 40 percent of all commercial 
seafood in the lower 48 States. Our Nation's seafood industry 
is clearly relying on a healthy gulf.
    Tourism heavily depends on a healthy gulf. Restaurant, 
hotel, and other hospitality workers are part of the gulf's $34 
billion-a-year tourism industry.
    Clearly, restoring communities and the environments of the 
gulf is critical to both the Gulf Coast States and the Nation, 
as a whole. It is in our Nation's best interest that this 
Congress works diligently and passes the RESTORE Act. There is 
no time to waste. The Gulf of Mexico needs it. America needs 
it. Mr. Chairman, Ranking Member, and other Members, thank you 
for your time. I yield back.
    Mr. Gibbs. Thank you.
    Representative Bonner, welcome.
    Mr. Bonner. Thank you, Mr. Chairman and members of the 
committee for holding this time-sensitive hearing. And special 
thanks for affording some of us an opportunity to share our 
experiences and our thoughts with you.
    The RESTORE Act, as has already been noted, is vitally 
important to both the gulf coast and to our country. And it is 
the Members who are here today from the five Gulf Coast States 
of Texas, Louisiana, Mississippi, Florida, and Alabama, on 
behalf of the millions of American taxpayers who reside on 
those--in those States and along that gulf coast who very much 
appreciate the opportunity to share with you some of the 
reasons why we believe this legislation is the right solution 
and the right resolution to this tragedy.
    On a personal note, I am also grateful to the committee for 
giving one of our local leaders, Gulf Shores Mayor Robert 
Craft, who will be in one of the later panels, an opportunity 
to bring his unique perspective, as well. Mayor Craft is one of 
the many unsung heroes from this tragedy, in that he and so 
many other local leaders helped their communities keep the 
faith, especially during the darkest days of this, which was 
the worst manmade disaster in U.S. history when, as we can all 
recall, it didn't seem that anyone or anything could plug that 
plume of oil that was spewing up more than a mile deep off the 
bottom of the Gulf of Mexico.
    While unlike the chairman of the committee, who hails from 
a State whose total coast line is more than 600 miles of 
beautiful white sandy beaches, Alabama only has about one-tenth 
of that amount. In fact, even today many Americans are 
surprised to learn that Alabama has some of the most beautiful 
beaches in the world, all of which are located in my 
congressional district, in southwest Alabama.
    But whether along the Florida Panhandle or in communities 
like Fort Morgan, Orange Beach, Gulf Shores, Dolphin Island in 
Alabama, the beaches along the northern Gulf of Mexico are as 
unique and as desirable to vacationers as any in the world. For 
generations, the beaches of Baldwin and South Mobile Counties 
in Alabama have been Vacation Central for Alabamians and for 
people all along the Gulf Coast States. Unfortunately, on April 
20, 2010, the tragic and deadly Deepwater Horizon explosion 
changed that image in the minds of millions of Americans.
    As oil began to wash ashore weeks later, fisheries were 
shut down. Hotels and condominiums lay vacant. And restaurants 
that were normally filled with tourists in anticipation of a 
good tourism season were empty. To say we struggled to stay 
afloat during that season would be an understatement. But to 
not acknowledge that businesses are still struggling almost 2 
years removed from this event would be doing everyone who lives 
along the gulf coast a great disservice.
    Thankfully, most of the visible oil has been removed from 
our beaches, and tourists returned to the Alabama gulf coast 
this past summer in record numbers. But for all the great 
progress that has been made, Mr. Chairman, there is still a lot 
to be done to fully heal the scars, and to ensure that future 
threats to our region will be minimalized.
    Members of the committee, the five of us are making the 
case today that there is still every reason to be concerned 
about future economic and environmental impact from the oil 
spill. A lot of questions still are not answered. And make no 
mistake. Each Gulf Coast State was affected in a different way 
from last year's spill. Some States, like Louisiana, arguably 
had more environmental damage, while others like Alabama 
endured significant and adverse economic impact. Our beaches in 
particular lost at least 1 million tourists during the 2010 
season. And the absence of these tourism revenues struck just 
as our area was trying to recover from the worst recession 
since the Great Depression.
    While we should all be hopeful about the prospects of 
putting the nightmare of 2010 behind us, the progress made 
toward the cleanup is but a hollow victory for thousands of 
local businesses and individuals which were dealt crippling 
blows during a tourism season that was a complete loss. Entire 
communities are still reeling from business losses, while the 
presidentially appointed administrator of the BP claims system, 
Mr. Ken Feinberg, continues to slow-walk approval of the 
legitimate claims payments.
    While that is not what this hearing is about, I for one 
believe Mr. Feinberg's gulf coast claims facility has been 
nothing short of a colossal failure, and should be an 
embarrassment for the Obama administration that set it up.
    That said, bringing the majority of the Clean Water Act 
fines assessed against BP, TransOcean, Halliburton and others 
back to the Gulf Coast States is only fitting, as our region 
was uniquely and undeniably affected by this tragedy. As those 
of us who live along the Gulf of Mexico already know, our 
backyard is vital to the economic health of our entire Nation. 
As Mr. Palazzo and others have said, it is home to the vast 
majority of oil and gas production that benefits the entire 
country, as well as 40 percent of the country's seafood 
production. And it is a major world-class tourism destination 
that has economic benefits for the entire country.
    In fact, if the United States Gulf Coast States, our five 
States of Alabama, Florida, Louisiana, Mississippi, and Texas 
were an individual country, they would rank seventh in global 
GDP with more than $2.5 trillion annually. It is for this 
reason, Mr. Chairman, among many others, critical that the Gulf 
Coast States, which bear so much risk, even today, be afforded 
access to the majority of the Clean Water fines collected to 
restore the damage that has been done, and to better prepare 
our region to respond to future crises.
    I am personally pleased that the five of us and the other 
Members, in a bipartisan way, who live in the five coastal 
States have worked to support Mr. Scalise and the legislative 
initiative that he helped bring to this table today--and I very 
much appreciate the committee and the Members giving this bill 
your serious consideration as a solution to a tragedy that 
should have never occurred. Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you, Representative.
    Representative Scalise, welcome.
    Mr. Scalise. Thank you, Chairman Gibbs, Ranking Member 
Napolitano, and the members of the entire committee for having 
this hearing. I also want to thank my colleagues from the gulf 
coast for being with us here today. We have all worked hard to 
bring together a bipartisan coalition of support for this bill.
    I do also want to correct the record. Louisiana won't even 
start getting revenue sharing until 2017 on offshore drilling, 
and it will be far below the 50 percent that was mentioned.
    But before I begin my testimony, my colleague from New 
Orleans, Congressman Cedric Richmond, had planned to be with us 
today but had to go back to New Orleans for the funeral of a 
close friend. He asked that I submit his statement for the 
record. So if I could ask the committee to have that statement 
submitted, I think you all have a copy with you.
    I want to thank the committee for taking up our bill today. 
The RESTORE Act will ensure that the lion's share of the future 
Clean Water Act fines assessed on the responsible parties will 
be dedicated to the Gulf Coast States that were directly 
impacted by last year's oil spill.
    On April 20th of last year, the Deepwater Horizon exploded. 
Eleven men lost their lives. And when the Macondo well blew 
out, the largest oil spill in our country's history ensued.
    We continue to remember those lost in the disaster, and 
keep their families with us in our prayers. The events of that 
tragic day are still felt every single day by the families, the 
communities, and fragile ecosystems all along the gulf coast.
    Five million barrels, over two hundred and five million 
gallons. At its peak, the amount of oil per day that spilled 
from the Macondo well was about the equivalent of oil used by 
the entire State of Delaware each day. For 86 days, oil flowed 
into the Gulf of Mexico, not only devastating the ecosystems of 
the gulf, but also causing billions in economic losses across 
all five Gulf Coast States, shutting down small businesses and 
destroying entire industries for an extended period of time.
    On the third panel you will hear testimony from Mike 
Voisin, a seventh generation oyster harvester who will discuss 
how the gulf seafood industry, which represents a large portion 
of our domestic seafood supply, was essentially shut down for 
an entire season.
    In addition, when the Government imposed a moratorium on 
drilling in the gulf, even for those companies who played by 
the rules and that in no way were connected to the Deepwater 
Horizon disaster, thousands of energy and service industry 
workers from all across the country lost their jobs, and about 
a dozen deep water rigs left our country for places like Ghana 
and Egypt.
    Every day people along the gulf coast continue to deal with 
the effects of this disaster. And each story is unique. But one 
theme is constant, and one thing is clear: the recovery of this 
region will take well over a decade. And it is critical that 
this bill move forward, so that we are able to ensure that when 
the fines are eventually assessed and collected, that a 
mechanism is in place to ensure that those penalties return to 
the areas where the disaster occurred.
    As I mentioned, this bill has wide support, not just from 
members of the gulf, but also for Members of Congress all 
across the country.
    I want to particularly thank Congressman Don Young from 
Alaska for cosponsoring this bill, the RESTORE Act. He is all 
too familiar with the decades it takes to recovery from an oil 
spill. As the lead architect of the Oil Pollution Act of 1990--
which is the legislation that actually imposes these fines we 
are talking about--in the wake of the Valdez spill, Congressman 
Young can attest to the importance of this legislation.
    We have also received wide support from a broad coalition 
of people and organizations in the business and conservation 
communities. And I would like to submit for the record the 
support from those organizations, Mr. Chairman.
    Mr. Gibbs. So ordered.
    [Letters in support of S. 1400 and H.R. 3096, the RESTORE 
Act, follow. Please see the ``Prepared Statements Submitted by 
Members of Congress'' section for the statement of Hon. Cedric 
L. Richmond, a Representative in Congress from the State of 
Louisiana.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Mr. Scalise. If we look at the Valdez spill in Alaska, what 
we know is that even now, more than two decades later, those 
communities and the ecosystems that were directly affected 
still haven't fully recovered. And many of those effects 
weren't seen until many years later. Just one example was the 
collapse of the herring fishery in Alaska. The failure of the 
herring to come back couldn't fully be anticipated for about a 
decade after the spill. And it is estimated that the loss of 
the herring industry alone has cost the region about $400 
million.
    The gulf coast will be dealing with similar restoration 
issues for more than a decade. And the ecosystems and resources 
of the gulf coast are of critical importance to our entire 
country. Thirty-three percent of the Nation's seafood harvest 
comes from the gulf. We produce 90 percent of America's total 
offshore oil and gas. And we are home to 10 of the Nation's 15 
largest ports.
    Last year's oil spill jeopardized these assets. And 
particularly in Louisiana, where we continue to lose a football 
field of our coast every hour, the effects of the oil spill 
exasperated the degradation of an already fragile ecosystem 
which supports the economy and resources all along the gulf 
coast which are so important to our entire country.
    As history has shown us, after the Valdez spill, the 
recovery of the gulf coast region will take years to 
accomplish. It is essential that Congress work to ensure that 
responsible party, not the taxpayer--and I think that is very 
critical to note in this, it is the responsible party, not the 
taxpayer under our bill--that will foot the bill for this 
disaster and the cleanup. And our legislation, the RESTORE Act, 
accomplishes that while making sure there is a mechanism in 
place that allows each State to respond to our unique recovery 
needs.
    This legislation enjoys bipartisan support, and I look 
forward to working with this committee to pass our bill. Thank 
you, Mr. Chairman, and I yield back.
    Mr. Gibbs. Thank you. I want to commend you, all five of 
you, for coming before the committee with your testimony, and 
making sure that the damage that was done to your constituents 
are made whole. And obviously, the economic vitality of the 
gulf coast region is very important to the rest of the country.
    So, thank you for being here. And you are excused, and we 
will take a break for just a few moments while our panelists 
for panel two can get to their seats.
    Our next panel, we have two panels of expert testimony. We 
have Mr. Craig Bennett, he is the director of the National 
Pollution Funds Center of the United States Coast Guard. And 
Mr. Tony Penn is the deputy chief of the assessment and 
restoration division, Office of Response and Restoration of the 
National Oceanic and Atmospheric Administration.
    Mr. Bennett, we will start with you. Welcome, and the floor 
is yours.

  TESTIMONY OF CRAIG A. BENNETT, DIRECTOR, NATIONAL POLLUTION 
FUNDS CENTER, UNITED STATES COAST GUARD; AND TONY PENN, DEPUTY 
CHIEF, ASSESSMENT AND RESTORATION DIVISION, OFFICE OF RESPONSE 
       AND RESTORATION, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Bennett. Good morning, Chairman Gibbs, Ranking Member 
Napolitano, and distinguished members of the committee. I am 
grateful for the opportunity to testify before you today about 
the RESTORE Act. My testimony will focus on how this act may 
impact the Oil Spill Liability Trust Fund and the liability and 
compensation regime established by title I of the Oil Pollution 
Act of 1990, open OPA90.
    Whenever there is an oil spill affecting U.S. waters, my 
role as the director of the NPFC is threefold. First, I fund 
the Federal oil pollution removal costs and trustee costs to 
initiate assessment of natural resource damages, using amounts 
Congress has made available from the Oil Spill Liability Trust 
Fund. Second, I ensure the response party adequately advertises 
its process for paying OPA90 claims for removal costs and 
damages. And, if claimants are not fully compensated by a 
responsible party, they may present their claims to the NPFC 
for payment from the Oil Spill Liability Trust Fund. Third, I 
recover costs from any and all responsible parties.
    With respect to the Deepwater Horizon spill, costs to the 
Oil Spill Liability Trust Fund for Federal removal activities 
and trustee costs to initiate the assessment of natural 
resource damages have totaled $616 million to date. In 
addition, the Coast Guard has incurred $272 million in removal 
costs that were not paid directly out of the Oil Spill 
Liability Trust Fund, but for which the responsible party is 
liable.
    As the responsible party, BP is advertising its claims 
process, and paying claims for damages that result from the 
spill. In general, claimants whose claims to BP or its gulf 
coast claims facility are denied or not settled after 90 days 
may present their claims to the NPFC for consideration. At the 
NPFC we have received more than 1,500 claims from individuals 
or businesses. The NPFC has paid one Federal trustee natural 
resource damage assessment claim in the amount of $1.4 million.
    To date we have sent the responsible parties 12 bills 
totaling $716 million in Federal costs, due to the Deepwater 
Horizon spill. Of these, BP has paid the first 11 bills in the 
amount of $712 million in full. We will continue to bill the 
responsible parties for all costs under OPA90.
    The RESTORE Act would, among other things, redirect 80 
percent of the civil penalties paid under the Deepwater Horizon 
responsible parties under section 311 of the Clean Water Act. 
Under the RESTORE Act, these redirected penalties could 
apparently be used for a broad range of ecological and economic 
restoration projects in the five Gulf States.
    The provisions of the RESTORE Act may impact the Oil Spill 
Liability Trust Fund and the OPA90 liability and compensation 
regime in two important ways. First, the Oil Spill Liability 
Trust Fund is financed, in part, from Clean Water Act 
penalties. The redirection of these penalties would, therefore, 
be the most direct impact of the RESTORE Act on the Oil Spill 
Liability Trust Fund. Second, there was a potential for 
overlapping funding by the Gulf Coast Restoration Trust Fund of 
activities that might also constitute damages for which a 
responsible party is liable under OPA90. Responsible party 
liability includes natural resource and other economic damages. 
This liability is an addition to the responsible party's 
liability for any Clean Water Act penalty.
    The potential for overlapping damage compensation could 
increase the burden on claimants when presenting OPA90 claims 
to establish that their claim damages have not or will not be 
compensated from the penalty amounts. The potential for 
overlapping damage compensation could also complicate NPFC cost 
recovery by providing the responsible parties with arguments 
that their penalty payments have been used to compensate the 
damages paid by the Oil Spill Liability Trust Fund.
    The Coast Guard looks forward to working with the committee 
on these very important issues. Thank you for the opportunity 
to testify today. I look forward to your questions.
    Mr. Gibbs. Thank you.
    Welcome, Mr. Penn. The floor is yours.
    Mr. Penn. Thank you, Chairman Gibbs and members of the 
committee, for the opportunity to testify on the natural 
resource damage assessment and restoration planning processes 
for the Deepwater Horizon oil spill as you consider H.R. 3096, 
or the RESTORE Act. My name is Tony Penn, I am the deputy chief 
of the assessment and restoration division in NOAA's Office of 
Response and Restoration. I appreciate the opportunity to 
discuss NOAA's trustee roles in the natural resource damage 
assessment process, also known as NRDA.
    NOAA and our co-trustees have been working tirelessly over 
the last 19 months to assess the ecological and human use 
impacts of the spill and to identify restoration opportunities 
in the Gulf of Mexico. My testimony today will discuss the 
damage assessment process in general, and the status of the 
Deepwater Horizon assessment and restoration.
    NOAA, along with our co-trustees, is charged with assessing 
and restoring natural resources and services injured by an oil 
spill. The goal of the assessment process is to determine the 
type and amount of restoration needed to compensate the public 
for injury to the natural resources. The trustees also assess 
the public's lost use of those resources, such as recreational 
fishing, boating, hunting, and swimming. The ultimate goal of 
NRDA is to implement a package of restoration projects that 
compensate the public for all the ecological and human use 
injuries. The NRDA process does not address private or 
commercial economic losses.
    Since the outset of the Deepwater Horizon spill, NOAA has 
worked with Federal and State co-trustees and responsible 
parties to assess the injuries to ecosystem resources of the 
Gulf of Mexico. NRDA studies have been conducted in almost 
every area of the regional ecosystem. These include science 
directed at measuring the exposure and ecological injuries to 
resources and habitats in the shoreline, nearshore, water 
column, continental shelf, and deep sea environments. 
Additionally, they include assessing impacts due to the acute 
and chronic exposures of the ecosystem to the released 
hydrocarbons and dispersants.
    Presently, our longest term studies consist of less than 2 
years of field observations and data, and analyses from that 
work are only now becoming available for synthesis and 
interpretation. Field studies are supplemented by toxicity 
studies that look at many permutations of exposure to oil in 
the laboratory, from fresh to weathered oil, and with and 
without dispersant. The unique ecosystem impact of this spill, 
especially among very long-lived organisms such as turtles, 
tuna, and mammals, means that long-term restoration monitoring 
will be central to any final restoration plan.
    Concurrent with the injury assessment, NOAA and the co-
trustees are planning for and implementing restoration. To 
date, the trustees and BP have agreed to implement several 
emergency restoration projects designed to curtail further 
injury to resources. The trustees are also preparing an 
environmental impact statement which will identify a range of 
restoration alternatives that the trustees will consider to 
compensate the public for lost natural resources and services. 
On April 21st of this year, the trustees announced an agreement 
whereby BP agreed to fund $1 billion in early restoration 
projects. Public input on early restoration projects has 
already begun, and will continue through this year and into 
next.
    Natural resource damages are one element of liability under 
the Oil Pollution Act, or OPA, that address injury to, 
destruction of, loss of, or loss of use of natural resources. 
Other elements of liability under OPA include oil removal 
costs, real and personal property damages, loss of subsistence 
use of natural resources, lost Government revenues that may be 
recovered by the United States, a State, or a political 
subdivision of a State, lost profits and earnings capacity of 
businesses and individuals, and net costs of increased or 
additional public services--again, which may be recovered by a 
State or a political subdivision of a State.
    As stated in H.R. 3096, the purpose of the RESTORE Act is 
``to restore the natural resources, ecosystems, fisheries, 
marine and wildlife habitats, beaches, and coastal wetlands of 
the Gulf Coast States, and to create jobs that revive the 
economic health of communities adversely affected'' by the 
events surrounding the Deepwater Horizon. Ideally, natural 
resource damages should address restoration of resources 
impacted by the Deepwater Horizon spill. The ecological 
restoration called for in the RESTORE Act could address chronic 
non-spill environmental conditions.
    The task of compensating the gulf coast residents and the 
larger American public for the impacts of the Deepwater Horizon 
spill is no small feat. The NRDA process under OPA provides a 
mechanism to mitigate the environmental impacts of the spill. 
And other provisions under OPA can address other types of 
impacts. The RESTORE Act is another opportunity to provide 
compensation in addition to OPA. The mechanisms by which the 
ultimate compensation is achieved should be clearly defined, 
and should consider provisions that currently exist under OPA.
    Thank you for allowing me to testify on the damage 
assessment and restoration process.
    I am happy to try and address any questions you may have.
    Mr. Gibbs. Thank you. I will start off the first round of 
questions for this panel. Mr. Bennett, I think currently there 
is, what, $2.3 billion in the trust fund. Is that correct?
    Mr. Bennett. That is correct, sir.
    Mr. Gibbs. Has all the cost that the trust fund has paid 
out, incurred--has been reimbursed from the responsible 
parties? What is the status on the reimbursements and your 
expenditure so far from the spill?
    Mr. Bennett. We have billed for not all the costs that have 
been incurred, it is an ongoing process of billing. But we have 
billed for $700 million of the Federal cost, which is probably 
80 percent of the cost incurred. And BP has paid all but one 
bill of $5 million that is pending payment.
    Mr. Gibbs. I am curious--before the spill, historical trust 
fund balance. What would be your historical number?
    Mr. Bennett. Well, the trust fund originally--they called 
it a billion-dollar fund. It originally had a cap at $1 
billion. And recently, when the tax was reenacted, the cap was 
lifted. So it has been growing from around--from under $1 
billion to the current state of $2.3 billion. So $2.3 billion 
is as big as it has ever been, right now.
    Mr. Gibbs. OK. What--I guess we heard in the testimony--I 
am a little concerned if these parties went bankrupt or 
insolvent, or if we had oil from a spill coming from the waters 
of Cuba, we could be liable for it and the trust fund could be 
really hit hard.
    So I guess for contingency plans, from an actuary 
standpoint, what do you think the trust fund balance should be 
at, for historic levels?
    Mr. Bennett. That is a great question, Mr. Chairman. For 20 
years $1 billion was clearly more than enough for anything we 
witnessed. But this was the first time we have had a Spill of 
National Significance since OPA was enacted. And in the wake of 
what has been called probably a $40 billion spill, it is hard 
to say what the right amount would be.
    What I can say is the more that is there, the less likely I 
would have to come to you to ask for supplemental funds, should 
we run out of money. But it is hard to put a number on that.
    Mr. Gibbs. OK. Mr. Penn, under this bill that is being 
proposed, would it be possible to use the penalty funds to 
finance restoration projects that are--responsible parties are 
also liable under the fund?
    Mr. Penn. So, in looking at the bill, that is one of our 
concerns, is could these monies, the Clean Water Act penalties, 
be used for restoration that the responsible parties would 
otherwise be responsible for. And so what we would like to see 
is that the responsible parties are--they fully pay for what 
they owe under the OPA natural resource damages provisions, and 
that, you know, these dollars that would be available under the 
RESTORE Act do above and beyond what the responsible party 
would be liable for under OPA.
    Mr. Gibbs. What role is the Gulf Coast Ecosystem 
Restoration Task Force playing in the NRDA process?
    Mr. Penn. Yes. So we have been coordinating very closely 
with the Gulf Coast Restoration Task Force, and I think we have 
talked with them over the past 16, 18 months now, about how we 
integrate the damage assessment with the work of that task 
force. And I think all along it was envisioned that the natural 
resource damage assessment would achieve restoration under its 
mandates, and then the gulf coast task force and their planning 
was to do restoration above and beyond what we would be called 
to do under OPA.
    Mr. Gibbs. OK. I will yield to the ranking member.
    Mrs. Napolitano. Thank you, Mr. Chair. To Mr. Penn, you 
indicated both the emergency and early restoration projects 
have been undertaken with financing from BP. Has BP been 
supportive of the effort? And can you talk more in depth about 
the benefits that this approach could conceivably provide?
    Mr. Penn. Yes, ma'am. BP has been cooperative. We are 
working on a cooperative damage assessment with them. As I 
mentioned, we are implementing a couple of emergency 
restoration projects--have already implemented. We are working 
on an early restoration plan to start using the billion dollars 
that they committed back in April.
    I think the--for this, for the RESTORE Act, a potential 
opportunity that doesn't conflict with what we are trying to do 
for natural resource damages and the ecological restoration 
that we are doing is--as I mentioned in my statement, NRD does 
not address economic or commercial impacts. And so, in the 
RESTORE Act there is discussion about using funds for promoting 
the seafood industry, promoting tourism, workforce planning, 
planning assistance. Those are the kinds of things that we are 
not--that is not part of what we do under the damage assessment 
process. And so I think that might be an area where, you know, 
you wouldn't have this question about are you letting the 
responsible parties off the hook for their ecological 
restoration responsibilities.
    Mrs. Napolitano. Who then would be responsible for being 
able to address those shortages, those impacts?
    Mr. Penn. I am sorry, who would be responsible for----
    Mrs. Napolitano. Right. If your agency does not handle 
those particular areas, who then would they be able to turn to?
    Mr. Penn. Those economic impacts? Yes. Well, so that is a 
good question. And, you know, as I mentioned, the Oil Pollution 
Act does have these other elements of liability for, you know, 
private claims, for Government claims. I suppose there could be 
resources there to address some of these issues----
    Mrs. Napolitano. Well----
    Mr. Penn [continuing]. But I don't know that that is 
happening.
    Mrs. Napolitano. Well, Mr. Penn, and that brings up an 
issue that if these people have no redress, because they can go 
to an agency and say, ``No, it is not our responsibility, it is 
somebody else's,'' but nobody knows who else, then those people 
are still left holding the bag for something they have no part 
in, the catastrophe.
    Mr. Penn. Yes, ma'am. And that is why I think that would be 
a fine use of the RESTORE Act, is to focus on that economic 
kind of recovery.
    Mrs. Napolitano. OK. Then the other question, then, the 
importance--what is the importance of the long-term monitoring, 
the damage assessment process? And is that type of monitoring 
covered under the Oil Pollution Act of 1990? And is there a 
timeframe limit?
    Mr. Penn. So monitoring is very important as part of our 
damage assessment process. We, as we are charged with making 
the public and the environment whole, we want to--first we have 
to implement the restoration that we think is going to be 
compensatory. We use the monitoring to make sure that that 
restoration is performing and basically meeting the 
requirements that we set out, so that the public does get back 
those resources and services.
    In the past, I would say, you know, monitoring has been on 
the order of 5 to 10 years, depending on the area, the kind of 
restoration that we are doing. I think in this case, 
restoration monitoring will be longer lasting. We expect that, 
as I mentioned, with some of these resources that are impacted, 
we may not see the effect of the spill on those resources for 
perhaps decades.
    So, as part of our restoration, we plan to do active 
monitoring to see that we are able to restore resources, and to 
see also if there isn't some latent effect that we might have 
missed in the early days of our assessment----
    Mrs. Napolitano. OK, but if this were to take, say, a 
couple of decades, as you are mentioning, would BP still be 
liable to be able to address those events?
    Mr. Penn. Yes. So what we would try and do, as part of the 
final restoration plan, the settlement or the court judgment, 
we would target funds that would come from BP for that long-
term monitoring, as part of----
    Mrs. Napolitano. What is there in writing, or--and you can 
address, Mr. Bennett, if you wish--is there something somewhere 
that really holds BP liable for this extended period of impact?
    Mr. Bennett. Yes, ma'am. I can answer that question. Under 
the law OPA90 right now there are statute of limitations for 
the various kinds of damages. And the statute of limitations 
for NRD damages is 3 years from when the damage is known. So, 
in the case of NRD that is typically 3 years from the end of an 
assessment being done. And there is no limitation on when 
assessment can take place.
    So if, for example, a certain species showed a problem 10 
years from now and the trustees needed to start an assessment 
process and study and then come up with a restoration, the 
statute of limitation would all start from the end of that 
assessment. So there is basically no limit. And the 
responsible--BP would--and the other responsible parties would 
remain responsible, regardless of how long that took.
    Mrs. Napolitano. And they are aware of that?
    Mr. Bennett. Yes, ma'am. They are very aware of that.
    Mrs. Napolitano. Thank you. Then, Mr. Bennett, you affirm 
in your written statement that the direct impact of the RESTORE 
Act on the Oil Spill Liability Trust Fund would be--that it 
would redirect up to 80 percent of the amounts gathered through 
the Clean Water Act section 311 penalties. I don't think you 
mention that impact would be from the loss of the revenue to 
the trust fund. What would be the diversion of funds away from 
the Oil Spill Liability Trust Fund--threaten the fund's 
solvency in the short or long term? And would the fund be able 
to function in the future, much as it has over the past 30 
years? Long question.
    Mr. Bennett. That is a good question, ma'am. And the short 
answer is no, it would not affect the solvency. We typically 
get $10 million to $20 million a year in Clean Water Act 
penalties. So the amount that we are talking here is a very 
large amount relative to what, historically, has been there.
    But as the chairman pointed out, it is that much--our only 
point is that it will be that much less money that is there for 
future spills, and it is not our--I am kind of agnostic as to 
how much flows into the fund or doesn't flow, I just want to 
make sure people understand.
    Mrs. Napolitano. Well, Mother Nature doesn't count on the 
rules that we set.
    Mr. Bennett. Yes, ma'am.
    Mrs. Napolitano. So thank you, Mr. Chair, for the 
indulgence.
    Mr. Gibbs. Thank you. Representative Landry, you have 
questions?
    Mr. Landry. Yes, Mr. Chairman. Thank you. Is--Mr. Bennett, 
is it my understanding that you have some objection to 80 
percent going to the Gulf Coast States?
    Mr. Bennett. I don't have an objection, per se. I have an 
observation, if you will, that it potential--not about whether 
it goes to the States, but that the--the diversion of 80 
percent--the one concern is that that is less money that is in 
the fund for future spills. And the other concern we have is 
that the potential for overlapping issues with NRD--and I would 
just hope that we can work together to resolve the potential 
impacts of that, because it could complicate being responsive 
to a particular claimant down the road, and it could also 
complicate potential litigation in the future with ERPs, if 
there is overlap.
    Mr. Landry. So your recommendation would not be basically 
to direct that 80 percent to the States. Is that----
    Mr. Bennett. I don't have a recommendation, one way or the 
other, on whether there is 80 percent direction.
    Mr. Landry. Mr. Penn?
    Mr. Penn. NOAA and the administration support the goals, 
the objectives of the RESTORE Act, of directing a significant 
portion of the Clean Water Act penalties into gulf coast 
recovery and restoration.
    Mr. Landry. Well, here is the question. I mean ultimately 
you all work for the President, correct? And I mean do you all 
normally go against the recommendations of the administration?
    Mr. Bennett. No, sir.
    Mr. Landry. Well, the administration directly recommended--
all of his panels directly recommended that 80 percent of the 
fines go to the Gulf Coast States. So what I am trying to get 
from you all is to just echo what the administration has 
recommended.
    So is that a fair assessment? Could you make that 
recommendation to us today, based upon what the administration 
has already recommended in their task force? I mean I would 
like to make sure that everybody is singing off the same 
hymnal.
    Mr. Bennett. Yes. It is a good question, Congressman. I 
don't think either of us are in a position to speak officially 
for the administration on----
    Mr. Landry. Wow, really?
    Mr. Bennett. We don't object--what we are trying to do is 
make sure the committee is aware of the implications of the 
bill, as written.
    Mr. Landry. Did you make--I mean--but evidently--I am sure 
the administration is aware of those implications, and 
evidently has made an executive decision that, you know what, 
those concerns--basically, directing 80 percent to those States 
trump those particular concerns. And I just again wanted to get 
everybody on the same hymnal.
    Mr. Penn. I guess I would, if I may, say that, again, NOAA 
and the administration support the objectives of 80 percent, or 
a significant percent, of the Clean Water Act penalties going 
to gulf coast recovery and restoration.
    I think the administration also shares the concern that we 
want to hold the responsible parties liable for what they are 
responsible for in restoration. We want to do the restoration 
that comes from the RESTORE Act in addition to what the 
responsible parties are required to do.
    Mr. Landry. OK, great. Thank you. I have another question 
for you. Mr. Bennett, in analysis that you have done to date, 
have you examined the impact on a State-by-State basis?
    Mr. Bennett. I am not sure I follow your question. When we 
get claims we analyze the merits of each individual claim, and 
it is a very fact-specific----
    Mr. Landry. I mean are you able to tell us, based upon the 
research and the study that you all have done throughout the 
gulf coast, if you can determine which States have had the 
greatest environmental impact, up to date?
    Mr. Bennett. Well, I have information on claims submitted 
and what GCCF reports and BP has--claims paid. I would have to 
defer to the trustees on the ongoing assessment of the 
environmental impact. I don't think that is a known quantity at 
this point.
    Mr. Landry. So you don't have the ability to determine if 
certain States had been affected disproportionately? Like Mr. 
Bonner said, you know, some States from an environmental 
standpoint and others from an economical standpoint.
    But, I mean, NOAA--to me, NOAA's main focus would be the 
environmental impact of the--you know, of each State. And so I 
am trying to determine whether or not you have the ability to 
say this particular area--it may not be a State, it may cross 
State lines--but this particular area was disproportionately 
affected, versus other areas of the Gulf of Mexico. I am just 
curious, based upon analysis that you all have made so far.
    Mr. Bennett. Yes, I can't say what is disproportionate. 
What I can say is we have--we can see what--the damages that 
are being paid, and what are being paid and compensated.
    Mr. Landry. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. Thank you. Representative Altmire.
    Mr. Altmire. Thank you, Mr. Chairman. Mr. Bennett, as you 
know, the Oil Pollution Act established finite caps for the 
emergency fund per incident expenditures and responsible party 
liability. And in light of the response and recovery costs for 
the Deepwater Horizon spill event, what is your opinion on 
whether these caps should be revised upward? And if so, by how 
much?
    Mr. Bennett. Congressman, that is a good question. We--it 
is hard to say if we will hit the cap. Certainly on removal 
costs, it doesn't appear to. That has kind of tapered off. 
There is ongoing response going on, but the costs of that are 
minor, in the scheme of things, for the removal actions.
    BP and the GCCF have paid out $7 billion to claimants 
already. Whether that is enough or not enough, we haven't paid 
a lot of damage money to individuals, businesses, or States.
    I think the big unknown is the NRD costs. And so far, BP 
has indicated--has paid some of those costs, and has put a 
billion dollars on the table to start early restoration. But it 
is a good question, because the amounts that are being talked 
about for NRD, if they were to come to the fund, would exceed 
the cap.
    Mr. Altmire. Now, under the RESTORE Act, which we are 
talking about today, the funds collected from the Clean Water 
Act penalties paid by BP and other responsible parties would be 
diverted from the Oil Spill Liability Trust Fund to a new Gulf 
Coast Restoration Trust Fund. This fund would then finance a 
wide range of environmental projects to restore natural 
resources affected by the Deepwater Horizon spill.
    However, under the natural resource damage assessments 
process, the same types of restoration projects could be 
supported by funds provided through a final NRDA damage 
settlement. Should the bill be amended to establish a clear 
demarcation between the types of projects funded through the 
NRDA and those projects funded under the RESTORE Act?
    Mr. Bennett. I think we would support--work to clarify the 
differences, and perhaps put a savings clause in or other 
mechanisms to help reduce some of the ambiguity about what 
might happen during cost recovery or claims adjudication 
downstream.
    Mr. Altmire. Mr. Penn, do you have a response also?
    Mr. Penn. Yes, sir. I think that would be a good thing to 
do, to make sure that is clear that we are not doing 
restoration with RESTORE Act funding, that that should be the 
responsibility of the responsible parties.
    Mr. Altmire. And lastly, still with Mr. Penn but I will ask 
both of you. If a responsible party were, in effect, to pay for 
an environmental restoration of the RESTORE Act, would this in 
any way affect how much that responsible party might later be 
liable under an NRDA settlement? Should the bill clearly keep 
these two processes separate for the purposes specifically of 
liability?
    Mr. Penn. Let me see if I understand. I think that if we--
if a responsible party--funds from a responsible party goes to 
implement restoration, ecological restoration, and that is not 
brought by the trustees as part of the damage assessment 
process, I think they very well could, as we go to ask payment 
for our restoration claims under the damage assessment process, 
they could say, ``Look, this area has already been restored.''
    And again, I think that is why we have to be very clear 
about what is being done for the natural resource damages 
versus what would be done under the RESTORE Act.
    Mr. Altmire. All right. Mr. Bennett?
    Mr. Bennett. I would agree. I would add typically there is 
an NRD damage dollar amount assigned to the damage. And so, if 
it is not clear whether they were--the RPs were getting NRD 
credit for what was done under the RESTORE Act, then it is--if 
the trustees came and did something similar, it could be 
problematic in adjudicating that claim, because I have to be 
able to do cost recovery against those funds. And if the RP 
goes to court and says, ``I have already done this,'' and it is 
not clear what happened, I don't know how the judge would rule. 
So that is the kind of thing that we are concerned about.
    Mr. Altmire. Great. Thank you both.
    Mr. Gibbs. Representative Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman. I have a 
couple of questions, some just in general and some specific to 
the district that I represent, which is a large chunk of the 
Gulf of Mexico, including the Padre Island National Seashore.
    But I want to first start with the broad national concerns 
with Mr. Bennett. After the Deepwater Horizon spill, I think we 
became acutely aware that as a country we don't have enough 
science and technology designed to deal with these sort of 
events, whether or not they are the result of a spill, of a 
U.S. oil company or a company operating in U.S. waters or, 
worse yet, a company operating in the waters of Cuba or Mexico 
or in the Arctic and in other foreign waters.
    What is the Coast Guard doing with respect to that? Are you 
all spending some money there? What are you all doing?
    Mr. Bennett. Yes, sir. As you know, there are provisions 
under OPA, title VII, for R&D. And there are discussions about 
continuing research and development. And I can take a question 
for the record if there is a specific question you have with 
regards to that. But it is a topic of discussion within the 
administration.
    [Insert for the record from the U.S. Coast Guard follows:]

        The Coast Guard's Research, Development, Test, and 
        Evaluation Program is currently executing four projects 
        to enhance the Service's ability to respond to a Spill 
        of National Significance:

        <bullet> LThe first project is ``Response to Oil in 
        Ice'' with the objective to develop equipment and 
        techniques for detecting, tracking, and recovering oil 
        in ice-filled waters. The Coast Guard has conducted one 
        exercise in the Great Lakes region to examine the 
        capabilities of existing equipment and plans to conduct 
        another exercise in the Great Lakes region in fiscal 
        year 2012.

        <bullet> LThe second project is ``Recovery of Heavy 
        Oil'' with the objective to develop the capability to 
        detect and recover heavy oil on the sea/ocean floor. 
        The Coast Guard has conducted some initial prototype 
        testing and plans to conduct a field demonstration in 
        fiscal year 2012.

        <bullet> LThe third project is ``Detection and 
        Collection of Oil within the Water Column'' with the 
        objective to develop technologies that can detect and 
        mitigate oil within the water column down to 10,000 
        feet.

        <bullet> LThe fourth project is ``Mobile Asset Tracking 
        and Reporting'' with the objective to develop a 
        flexible, interoperable communications and information 
        system that will assist the Coast Guard, other 
        Government agencies, first responders, and volunteers 
        in responding to an incident of national significance.

    Mr. Farenthold. So how much did you all spend last year? Do 
you know that, off the top of your head?
    Mr. Bennett. I don't have those numbers handy, but I would 
be glad to get an answer back.
    [Insert for the record from the U.S. Coast Guard follows:]

        In fiscal year 2011, the Coast Guard obligated $1.9 
        million in personnel and direct project costs for the 
        four projects focused on enhancing the Service's oil 
        spill response capabilities using fiscal year 2011 and 
        previously appropriated funding.

    Mr. Farenthold. How much do you think you need for next 
year, I guess would be----
    Mr. Bennett. Yes, I am not----
    Mr. Farenthold [continuing]. The followup for that 
question, as well.
    Mr. Bennett. No, it is a good question, Congressman. But I 
am not an R&D expert. I would have to go back and get an answer 
for you.
    [Insert for the record from the U.S. Coast Guard follows:]

        Of the amounts appropriated in the Consolidated 
        Appropriations Act, 2012, over $650,000.00 is currently 
        allocated from the Coast Guard's Research Development 
        Test & Evaluation appropriation Research and 
        Development for initiatives focused on enhancing the 
        Service's oil spill response capabilities.

    Mr. Farenthold. And are you aware of--are you all 
partnering with academic institutions and other folks with 
regard to that R&D?
    Mr. Bennett. Yes, sir. I--although I am not an R&D expert, 
I do know that the Coast Guard and other Federal agencies work 
with academic institutions on R&D projects, and try to get the 
local people involved, as well.
    Mr. Farenthold. All right. Mr. Penn, as a NOAA 
representative, obviously the science is important to you. The 
beaches that are in the district that I represent are pretty 
much considered to be the garbage dump of the gulf. The way the 
currents work, it is going to probably wash up on the beaches 
of Texas. It is a ongoing battle that we fight. And as I think 
back in history, the Ixtapa well in Mexico, it was years after 
that blow-out that the final effects were determined and, you 
know, tar balls were washing up for a great deal of time.
    I have got some concern with some of the time limits and 
cut-offs in this proposed bill. How sure are we in the science 
that there isn't just some huge plume there, waiting in the 
gulf, waiting to wash up somewhere? And you know, is there a 
time certain that we are going to say, ``All right, we have 
pretty much got this handled''?
    Mr. Bennett. Thank you. That is a very good question. I 
don't think there is a time certain. We are--under the damage 
assessment process, our intent is to study this until, you 
know, we are forced to bring a claim in a court. The United 
States Government has filed a suit last December, and now we 
are on a court schedule for when we will have to present our 
claim. Certainly we will study as much as we can and understand 
the impacts up to that point.
    But even after that, whether it is a court settlement or a 
court order, we would--again, as part of our restoration plan, 
we would want to have monitoring to see that there aren't 
latent impacts that we see some time down the road that--you 
know, in the settlement context, you know, we would look at a 
re-opener clause. You know, Exxon Valdez, that is something 
they are going through right now.
    So we are very concerned with your point, that we need to 
understand what has happened over time, the full length of time 
where there could be impacts, and get the public the 
restoration for those impacts.
    Mr. Farenthold. And I guess specifically I am concerned, in 
this act, if we are not careful in setting cut-off dates and 
deadlines, we are not going to be able to address the 
allocation of those resources, property.
    Let me go on and ask you another kind of broad national-
significance question on R&D and how this is handled. My--the 
way I look at it, I am afraid we are going to be setting up a 
bureaucracy. I think we have already got seven or eight 
agencies involved in this, as well as the individual States.
    So I guess my first question would be do you have any 
suggestions on minimizing that bureaucracy and increasing the 
efficiency of how this is dealt with?
    Mr. Penn. So with respect to the natural resource damages, 
we are working as a larger group. I mean we have a couple of 
Federal interests, we are working with all the States, the five 
Gulf Coast States. And, you know, I have to say I think it is 
one of the successes of what we have done to date, is that we 
have worked together, we have a trustee council that is 
shepherding us through the decisions that we need to make, 
working through the early restoration process.
    But you are right. It is a number of agencies and people 
that we have to coordinate. But I think we have done well with 
respect to the broader damage assessment process. I think--you 
know, you asked about research and development. Our office, our 
particular office, the Office of Response and Restoration, 
would like to have some sustained focused effort on some of our 
oil spill response and damage assessment needs. And so if that 
focuses for our particular needs, we are supportive of that. 
You know, going through the Coast Guard may be another way of 
getting some of this important research done.
    Mr. Farenthold. I see I am out of time. Thank you very 
much.
    Mr. Gibbs. Representative Southerland. Questions?
    Mr. Southerland. Thank you, Mr. Chair. I would like, if I 
could, to ask that three different reports from Federal task 
forces be submitted into the record.
    Mr. Gibbs. So ordered.
    Mr. Southerland. Great. Thank you very much. One of the 
things, as a Member--I live in Panama City, Florida. So this 
morning Representative Miller sat on the panel to talk about 
the interest of Florida. But I was fortunate enough to work 
with our spearhead, Mr. Scalise here, in the forming of this. 
And I had, clearly, great concerns. But not only do I feel that 
we have the responsibility to legislate here regarding this 
incident, the Deepwater Horizon, I lived through it, because my 
community is on the Gulf of Mexico, and I have nine coastal 
counties.
    One of the things that I want to make sure--because we keep 
talking about restoration and restoration, and as we talk about 
the RESTORE Act both in this committee and any other committee 
of oversight, I want to make sure that those of us who worked 
on the committee, especially those in Florida, recognize that 
there is a balance between the environmental damage and the 
economic damage.
    Now, I know we are going to have another panel after this 
one that will delve into that. But I am fortunate enough, you 
know, because of--Mr. Farenthold talked about the currents. We 
benefit from those currents, even though he is hurt by those 
currents, because I live on the Emerald Coast. It has the 
prettiest beaches in the world. So you know, we--our damage was 
economic.
    And so, when we talk about restoration, I would just ask 
all Members that are in attendance, and those that are perhaps 
watching this hearing to expand the definition and the purpose 
of restoration beyond environmental. It seems like every 
question here today has been focused on environmental. And I am 
telling you that I represent those nine counties. And how the 
effect of that wave of that economic damage went northward, we 
must also understand that there was significant economic damage 
to the small businesses. Thus, those economic damages continued 
to compound into the local and State governments that--and the 
cities that we live in.
    So--and the environmental cost--or, excuse me, the 
opportunity cost. It wasn't just the actual cost or loss of 
dollars, but it is the opportunity cost of what those dollars 
that weren't there prevented us from doing to better the plight 
of our citizens.
    So that was just a comment. I didn't get a chance this 
morning, because there wasn't room on the panel, but thank you 
for submitting for the record these reports. And I yield back.
    Mr. Gibbs. Thank you. That is our questions for this panel, 
but I just wanted to make a couple comments----
    Mr. Young. Mr. Chairman?
    Mr. Gibbs. Oh, I am sorry. Mr. Young.
    Mr. Young. Just don't forget me. You know, I used to sit in 
that chair. How time flies.
    I just want to make--I do support this legislation. The 
gentleman is absolutely right, that the lack of results to the 
economic loss to a lot of our small communities in Alaska--I 
lived through this. And my biggest concern is some of the money 
that we filed against Exxon--it took us a long time to get that 
money to us--I think was misused, not for the communities. We 
made a big mistake because we set up an organization that 
supposedly was to address some of the economic issues, but 
mostly environmental issues, and they ended up buying land, 
private land. That was not the appropriate thing to do.
    So, OPA wasn't perfect. I worked on that legislation. And I 
would like us to look at OPA. I think this is part of the 
solution. Mr. Scalise, I thank you for this legislation to make 
sure that the communities--because we hear a lot about the 
environment.
    If we leave God alone, the environment will do what it 
should do. And we will probably mess it up. And a lot of the 
areas in Alaska now, we ``cleaned the environment up,'' we 
killed the environment. We have dead areas where we use hot 
steam and soap and all that sort of thing. And we should have 
left it alone. We go out to muddle around in the bayous, 
cleaning up stuff that you know and I know that is natural to 
begin with, then we have a challenge to ourselves. Because are 
we doing better? I don't think we are.
    But the people that live there, yes, maybe they will get 
some money if they have a few claims to file. They may get some 
back, I don't know. Some of them rejected, probably rightly so, 
but maybe not. But we got to look at the total economic package 
of the coastal States, and the effect upon it. And communities, 
small and large, were hurt. The money that comes from the so-
called fines should not just necessarily go to the Government.
    Now, I do believe the trust fund should be re-established, 
Mr. Chairman, and to a point where there is enough money when 
something does occur. I do believe that very strongly. But 
let's not forget those individuals. And I think this bill here 
has got great merit. It may have some mistakes as far as, you 
know, setting precedent--I don't believe in precedent, by the 
way. Everybody says precedent. The precedent is set here in 
Congress, it is not set into law.
    And so, I do congratulate the gentlemen and those from 
coastal States who understand what they are going through and 
what their communities are going through.
    So, Mr. Chairman, as we go through these hearings and find 
out why and yes and no, let's get a little broader mind. 
Because when we passed OPA, it was the first time we had ever 
had an incident like this. And I take great pride in that bill, 
although I don't think it is perfect. I think we ought to build 
on that bill with this bill, and we will solve the problem. 
With that, Mr. Chairman, I yield back.
    Mr. Gibbs. Thank you. And I want to thank the panel. I do 
want to make a quick comment. As an outsider from the gulf 
coast region, I think as an American taxpayer, all taxpayers, 
we are thankful that the parties involved in this disaster have 
had the resources to make restitution and not put the hook on 
American taxpayers.
    So thank you for being here, and the committee will be at 
ease while we excuse this panel and bring up the third panel. 
Thank you.
    Mr. Landry. [presiding.] The hearing will be in order. I 
would like to first introduce our first--first one to make 
comments would be Mr. Julian MacQueen, chief executive officer 
of Innisfree Hotels. Mr.--I know you got a flight to catch, so 
Mr. Graves was kind enough to let you go first. So that is kind 
of why we are working a little bit out of order. So you have 5 
minutes, sir.

    TESTIMONY OF JULIAN MACQUEEN, CHIEF EXECUTIVE OFFICER, 
 INNISFREE HOTELS, INCORPORATED; GARRET GRAVES, CHAIR, COASTAL 
PROTECTION AND RESTORATION AUTHORITY OF LOUISIANA; HON. ROBERT 
  CRAFT, MAYOR, CITY OF GULF SHORES, ALABAMA; BILL WILLIAMS, 
COMMISSIONER, GULF COUNTY, FLORIDA; ROBERT H. WEISBERG, PH.D., 
    PROFESSOR OF PHYSICAL OCEANOGRAPHY, UNIVERSITY OF SOUTH 
  FLORIDA; AND MICHAEL C. VOISIN, MOTIVATIT SEAFOODS, HOUMA, 
                           LOUISIANA

    Mr. MacQueen. Well, thank you very much, Mr. Chairman and 
members of the committee for inviting me here today to share my 
experiences with the most damaging economic disaster to take 
place in the United States since the Three Mile Island nuclear 
meltdown in 1979.
    I have been in the hotel business all my life, starting as 
a busboy in the Fort Walton-Destin area at 15 years old, and I 
founded Innisfree Hotels 25 years ago with the development of 
an 88-unit hotel in Mobile, Alabama. I spent every cent I had 
to open the hotel and to develop the property and to hire my 
staff. My initial guests actually had to make their own beds 
until I had enough money to pay the housekeeping staff.
    Today, Innisfree is the largest hotelier in the Florida-
Alabama gulf coast area, and the largest employer and taxpayer 
on Pensacola Beach. We own and operate 12 properties with 1,640 
rooms and condominium units in Florida and Alabama. We employ 
800 people in the peak season and 625 people in the off season. 
We have a combined payroll in excess of $12.5 million. We pay 
in excess of over $2 million annually in lodging and sales 
taxes. And we pay in excess of $3.2 million annually in real 
estate taxes and lease fees.
    Our beachfront resort hotels in Orange Beach, Alabama, and 
Pensacola Beach, Florida, were at the epicenter of the BP 
Horizon oil spill that hit the Alabama-Florida beaches. I was 
attending a hotel owners conference when the news broke out of 
the explosion and the spill, and immediately rushed home to 
implement our disaster preparedness program.
    Those of us who live on the gulf coast are well experienced 
with natural disasters. For example, I lost seven hotels in one 
night during Hurricane Ivan in 2004. And one of those 
properties was the first to open up after the hurricane passed.
    But nothing I had experienced prior prepared me for the oil 
and the Corexit dispersant that drifted unabated from the 
spill. This toxic brew fouled our waters and blanketed our 
formerly pristine white sugar beaches with a thick oil and 
weathered tar balls. We watched with amazement, as did the 
world, at the lack of a plan from BP to control the spill, and 
later to clean up our beaches.
    Cleanup efforts were initially undertaken by people in blue 
jeans and tee shirts who raked and shoveled the sludge into 
bags wearing no safety clothing. It evolved painfully slow over 
weeks of experimentation to finally teams working in hazmat 
suits with sophisticated digging and sand and oil shifting 
mechanical equipment. The airborne fumes from the oil in our 
waters was so strong that it burned the eyes and the lungs, and 
our hospital emergency rooms treated 100 percent more 
respiratory problems in July of 2010 over 2009.
    We have had many major oil mats shifting, sitting on the 
oil of--the floor of the gulf, just off our beaches, that even 
the smallest storms wash ashore. Presently, our beaches need 
constantly cleaning and renourishment.
    This disaster could not have come at a worse time, 
economically. We had just suffered through 2 years of 
recession, and through the first 4 months of 2010 we were 
bracing for a record year. Unfortunately, however, while the 
rest of the Nation enjoyed a record summer, we enduring the 
trauma of a season without any tourists.
    We make 70 percent of our money in the summer. And this hit 
just 1 month away from the commencement of our peak season. It 
was much worse, economically, than a hurricane, which typically 
hits at the end of the summer or early in the fall, after the 
hotels and our seasonal employees have made the money they need 
to carry themselves through the winter.
    The phones stopped ringing as soon as the oil spill 
occurred and the people watched the oil 24 hours a day, 7 days 
a week, gushing to the gulf and floating our way. Our hotel sat 
at the epicenter of the spill coming ashore on the Alabama and 
Florida beaches. And the media coverage went on and on. 
National TV networks set up live broadcasts from our Hilton 
Hotel on Pensacola Beach, and I was interviewed by everyone 
from Sam Champion to Joe Scarborough, and from the Wall Street 
Journal, even to Al Jazeera. Our beaches were black from oil. 
The negative publicity was overwhelming and relentless.
    I went into a deep depression, thinking I had lost 
everything I had worked for my entire life. And there was 
nothing I could do about it. I have quantified--we have 
quantified that the negative free media exposure from May to 
December 2010 for just Pensacola Beach alone had an advertising 
equivalency in excess of $90 million. This is negative 
publicity.
    We survived by cutting staff and expenses to the bone from 
day one of the spill. Hundreds of conscientious, hard-working 
employees were denied work in those prime summer months from 
which they made their primary earnings for the year. We were 
favorably surprised when BP stepped up and started immediately 
funding emergency payments. We can argue over the methods, and 
whether or not everyone had been completely made whole by the 
BP claim process. But we cannot argue over the godsend of that 
initial payment.
    But I cannot stress enough that the long-term impacts of 
this disaster are not over. We have documented that many of our 
historical core customers have not returned to our hotels. For 
example, our Pensacola Beach Hilton Hotel has lost over 50 
percent of the premium Hilton Honors guests. These are premier 
travelers who stay--who can stay anywhere on the points that 
they earn on their travel points program. The core geographic 
market from which our guests come have changed.
    We know that over 50 percent of the gross revenue increase 
in 2010 over 2009 from our Pensacola Beach Hampton came in from 
95 markets from which we have never had a guest, while the 
number of guests from our traditional markets have declined. 
Many of our core customers went to other locations and have 
never returned. We know that some of our customers went to 
Myrtle Beach, for example, which had a remarkable summer in 
2010.
    Along with--although the region was blessed with an above-
average summer this year, we remain very concerned that it is 
not sustainable. This increase, which did not come from our 
core customers, was primarily driven by advertising grants to 
local communities by BP. A very sophisticated BP Web site and 
social media campaign involving Facebook, YouTube, Twitter, as 
well as $170 million BP spent in national advertising and 
promotion has helped us recover somewhat for 2011. Our 
convention and visitor's bureaus received three grants in 
excess of four times their normal operating budgets. And our 
guests increased. BP continues to operate a very sophisticated 
Web site and social media campaign, encouraging people to come 
for visits.
    Full economic and economic recovery of the gulf coast is 
directly tied to the use of monies received from the fines paid 
by BP for the barrels of oil they spilled. We still need 
beaches cleaned and renourished. We still need better 
preparedness plans by the oil companies working with the 
Federal, State, and local governments. We still need more 
research and better methods involved in the identification and 
removal of oil mats in the gulf before they come to shore. We 
still need more research and a better understanding of the 
long-term impact of our seafood, its ecosystems, and our 
wetlands. And we still need significantly greater marketing and 
advertising dollars.
    In conclusion, I urge you and your colleagues to support 
the Restoration Act. Our States, our counties, cities, and 
convention and visitors bureaus need these funds as soon as 
possible, and with the greatest flexibility, in order to 
maximize their effect, based on local needs. I urge Congress 
and the administration to make sure that the funding from this 
legislation benefits the full range of economic and 
environmental recovery efforts, such as tourism, ecotourism, 
tourism-related economic development, the gulf waters, seafood, 
and wetlands.
    Thank you again for this opportunity to share my story.
    Mr. Landry. Thank you, Mr. MacQueen.
    And now Mr. Garret Graves, the chair of Coastal Protection 
and Restoration Authority of Louisiana, someone who I have a 
tremendous amount of respect for, and understands coastal 
issues, regardless of whether you are in Louisiana or along the 
gulf coast.
    Mr. Graves.
    Mr. Graves. Congressman Landry, Congresswoman Napolitano, 
thank you very much for the opportunity to be here today. It is 
a good seat for you, sir.
    I want to thank Congressman Scalise for introducing this 
bill. But I think it is unfortunate that we have to be here 
today under these conditions, in response to the Deepwater 
Horizon oil spill.
    The Deepwater Horizon oil spill caused extraordinary 
impacts to the gulf coast. Nearly 1,100 miles of the gulf coast 
and all five Gulf States were oiled. Approximately 75 percent 
of the heavily and moderately oiled shore lines were in the 
State of Louisiana. Further, in the State of Louisiana we have 
had over 300 marine mammals such as dolphins, whales, and other 
species that have washed up on our shore lines and have been 
found oiled with fingerprint from Deepwater Horizon since the 
beginning of this oil spill.
    Just last month, Mr. Chairman, we removed 1 million pounds 
of tar mats from one beach in your congressional district that 
were previously unknown to exist. This oil spill is very live, 
very real, and very much impacting--continuing to impact our 
citizens today.
    This oil spill compounded the extraordinary impacts from 
the hurricanes we have had along the gulf coast. In the last 7 
years we have had--as I recall, I believe it is six of the most 
disastrous hurricanes in our Nation's history in regard to 
property damage. And this oil spill has compounded those 
efforts.
    It is important to recognize that the gulf coast is 
fundamentally different from many other coasts in the United 
States. The gulf coast is a working coast. Mr. Chairman, I know 
you are aware that the five Gulf Coast States cumulatively 
represent the seventh largest economy in the world. The gross 
domestic product from those five States represents 
approximately $2.5 trillion. Fifty-four percent of the Nation's 
oil, fifty-two percent of the Nation's natural gas, forty-seven 
percent of the Nation's refining capacity, and nearly fifty 
percent of all international commerce comes through our gulf 
coast through our port facilities, where 13 of the top 20 ports 
in the Nation are represented.
    In addition to that, on an annual basis, approximately 1.4 
million pounds of commercial seafood landings come from the 
gulf coast. It is one of the most productive estuaries in the 
world, and certainly the most productive in North America.
    Mr. Chairman, this area is absolutely vital to the Nation. 
Even on the recreational fishing side, about 31 percent of the 
recreational fishing trips in the United States occur on the 
gulf coast. And those anglers are so good that they bring in 
about 44 percent of the recreational fishing landings in the 
United States.
    The RESTORE Act is designed to fulfill recommendations of 
Secretary Mabus that was appointed by President Obama to 
develop a long-term recovery plan. It is designed to fulfill 
recommendations by the National Oil Spill Commission that was 
appointed by the President and had bipartisan leadership and 
former Senator Graham of Florida and former EPA administrator 
under President Bush, Sr., William Reilly. It was designed to 
response to the Gulf Coast Ecosystem Restoration Task Force 
recommendations that recommended that these funds be returned 
to the gulf coast. And it is responsive to comments by the 
President, who endorsed, as you noted earlier, Congressman, who 
endorsed the concept of returning these dollars to the gulf 
coast.
    I heard comments earlier regarding--and perhaps confusion--
regarding the fact that this bill perhaps would cause an 
overlap through existing remedies that are provided under the 
Oil Pollution Act in 1990. And I want to clarify some 
statements that were made there that I think are very, very 
important for folks to recognize.
    Number one, if these were duplicative or overlapping 
penalties if they were returned to the States, or if this was 
an overlapping remedy, why would they have been included in the 
same legislation? Why would the responsible parties be asked to 
pay both NRDA, economic, and these penalties, if they are 
overlapping or duplicative? These were done in the same year. 
These were all done in 1990 in the OPA bill. These are not 
duplicative. These are absolutely complementary penalties that 
are deterrents from causing environmental damages. I think it 
is important to keep that in mind. They are in the same 
statute. And so, if anyone would call those duplicative, I 
think that the Congress should review that. But certainly that 
is not the perspective of the State.
    Number two, and perhaps the strongest point, Mr. Chairman, 
is that if these funds are not returned to the Gulf States, 
that means that the Federal Government profits from these funds 
from the responsible party. Why should the Federal Government 
profit from the gulf coast loss? I don't think that is an 
appropriate policy approach. The Clean Water Act fines are 
complementary to the NRDA process. They are complementary to 
ecological restoration, and they supplement that process. They 
don't replace; they are in addition to.
    Lastly, Mr. Chairman, the Clean Water Act is an 
environmental statute. These fines are environmental-related. 
They are based upon volume of oil. They are based upon the 
impact that oil caused. And I think that these fines should be 
returned, based upon these environmental impacts, as the spirit 
of the legislation--excuse me, of the law--intends.
    I also heard, Mr. Chairman, that the redirection of these 
funds could cause gaps in the Oil Spill Liability Trust Fund, 
and I heard some very disturbing comments related to that. The 
Oil Spill Liability Trust Fund is designed to be a gap filler. 
It is not designed to be the bill payer for oil spills. Just 
like when I go drive a car, I have to have car insurance. And 
just as an operator is out there producing energy in the Gulf 
of Mexico, they should not be producing without the financial 
resources to address disasters such as a spill. And the trust 
fund was never set up to be the sole bill payer.
    Billions of barrels of oil, trillions of cubic feet of 
natural gas have been produced in the Gulf of Mexico without a 
spill. This spill was an anomaly. And based upon some of the 
analyses that have been done, there appears to have been gross 
negligence on the part of the operators, and it appears that 
perhaps oversight activities were not as robust as they should 
have been.
    I think it is important to recognize the comments that the 
director of the NPFC made on the second panel. He said that the 
balance of the trust fund today is the highest it has ever 
been. And this legislation does not take all of those funds. It 
does provide, under a worst case scenario, an additional $1 
billion, increase in the balance of the trust fund by 50 
percent, and perhaps increasing the balance of the trust fund 
by over 200 percent of its existing balance. And it could be 
more.
    The RESTORE Act--and this is another, I think, issue that 
was confused in some of the statements made earlier--the 
RESTORE Act simply improves upon the existing process known as 
SEPs, supplemental environmental projects. This is a 
fundamental component of virtually all settlements that are 
administrative settlements or judicial settlements. These 
projects are included in settlement negotiations with the 
responsible parties. They exist today. It has been happening 
for several years, hundreds of cases in all EPA regions include 
supplemental environmental projects. And in effect, what this 
legislation does is it takes the decision for how those funds 
are spent away from the responsible party, and gives it to the 
public, to the State governments, to the local governments, and 
to the Federal agencies that are responsible for the trust 
resources.
    Mr. Chairman, I think that is really important to 
recognize, that this is not a--that this is simply improving 
upon the current supplemental environmental project process. 
And I don't think that we should discriminate against the gulf 
coast by taking that away.
    Finally, Mr. Chairman, I want to note on the behalf of 
Louisiana that the State is committed to investing these 
resources and resiliency efforts to help ensure the resiliency 
of coastal Louisiana against future hurricane damages and 
future disasters, to help ensure that the gulf coast may 
continue to be an extraordinary component of this Nation's 
economy.
    Thank you, Mr. Chairman. Be happy to answer any questions.
    Mr. Landry. Thank you, Mr. Graves.
    Next, Mayor Robert Craft from the city of Gulf Shores, 
Alabama. You have 5 minutes.
    Mr. Craft. Mr. Chairman and members of the committee, thank 
you for inviting me to testify today. First, let me state again 
how much the coastal residents along the Gulf of Mexico 
appreciate your interest in our region, as you consider the 
RESTORE Act. I believe the RESTORE Act contains requirements 
for eligible spending, which will ensure the American taxpayer 
an annual return on this investment.
    As mayor of Gulf Shores, Alabama, a coastal city located 
directly on the Gulf of Mexico, we work closely with our sister 
city, Orange Beach, to support and enhance a dynamic beach 
tourism industry. In 2009, we hosted 4.6 million visitors on 
just 32 miles of sugar white sand beaches. This provided direct 
spending of over $2.3 billion, creating over 40,000 tourism 
jobs.
    In the pre-spill first quarter of 2010, our lodging tax, 
the only accurate measure of tourism performance, was up 17 
percent in Gulf Shores alone, indicating the promise of a 
record year. If two cities in one county with only 32 miles of 
beaches and in just one of the gulf's many industries had this 
much at risk, consider the cumulative threat to the thousands 
of miles of gulf between Florida and Texas.
    Ports along the coast struggled during this time to deflect 
the assumptions by many that they would be closed to traffic. 
The export-focused ports along the gulf coast are important to 
many sectors of the U.S. and local economies. Add to that the 
billions of dollars and thousands of jobs created by the gulf's 
oil and gas industry, as well as the commercial seafood 
harvesting and processing industry, and you understand the 
value of the coastal gulf to the Nation's economy.
    On April 20, 2010, with the tragic events resulting in the 
Deepwater Horizon accident, our world changed, most probably 
for years to come. All of our gulf-related industries came to a 
halt. Areas of the gulf were closed to all activities. 
Vacations were canceled, jobs were lost, and many small 
businesses with generations of history closed.
    As the oil spread throughout the gulf, so did the impact on 
the entire gulf economy and reputation. In South Baldwin County 
alone, tourism dollars in July, our busiest month, were down 
nearly 70 percent. Also in July, when large areas of gulf 
waters were closed, our seafood landings were down an 
unbelievable 97 percent. Surveys confirmed that 75 percent of 
people nationwide had significant concerns regarding the safety 
of gulf seafood. Those safety concerns, along with major 
reputational damage for the entire gulf, resulted in many lost 
customers and business failures.
    2011 was a much better year for our coast. Tourism and 
seafood were beginning to recover. But we all must understand 
why. BP funded $179 million in tourism grants and commitments. 
BP also funded $72 million for seafood testing and additional 
marketing. In addition, BP spent untold millions on protecting 
their brand and promoting their reputation with broad media ads 
touting the recovery and safety of the beaches and seafood. 
This dramatic increase in marketing is the main reason we had a 
good 2011.
    2012 and beyond remain a serious question, since no such 
commitments from BP exist, going forward. When BP leaves, the 
future is up to us. And there are still many unanswered 
questions. As analysis continues on the safety of our gulf, we 
wonder. Will there be any future unknowns that affect the 
marketability of our products? Will the oil or dispersants 
destroy our juvenile population of seafood? Will our small 
businesses and fishermen survive? The businesses that are still 
here--and many aren't--have seriously depleted reserves. This 
loss of reserves, combined with damaged access to credit and 
any future impact, be it more spill effects, further economic 
downturn, or a tropical weather event--and we will certainly 
see more businesses close.
    The entire gulf coast economy faces a continued threat from 
providing the energy resources that the Nation demands daily. 
But even with this exposure, which has a magnitude that we now 
all grasp, I believe the majority of us on the coast completely 
support continued safe drilling in our gulf, and encourage 
aggressive efforts to create energy independence for our 
country.
    All we ask is that, as those who are negligent are fined, 
the fine money be directed to the coastal economies that were 
damaged. This will allow us to recover and to continue to 
generate tax dollars each year to the benefit of all Americans. 
The RESTORE Act contains strict requirements for eligible 
spending. These appropriate restrictions will ensure the 
American taxpayers will receive an annual return on investment.
    There is no doubt that the gulf coast is of vital national 
importance. The ports, the seafood industry, the energy 
industry, and tourism all provide benefits to the entire 
country. It is absolutely in the Nation's interest to ensure 
that the gulf coast is able to boost its resiliency. Thank you, 
sir.
    Mr. Landry. Thank you, Mr. Mayor.
    The next panelist will be the Honorable Bill Williams, Gulf 
County, Florida.
    Mr. Williams. Thank you, Mr. Chairman. On behalf of 
Congressman Mica, and certainly yourself, as the chair, I 
appreciate the opportunity. My name is Bill Williams, and I am 
a Gulf County commissioner of a small county located near 
Panama City in Apalachicola, less than 20,000 people. But I am 
also the president-elect with the Florida Association of 
Counties, so I have the opportunity to work with all 67 
counties in the impact to our State, and as a system.
    I have a script that is here, and you all can read with it. 
I think the issue here is that we don't need a script. I 
certainly don't, because we lived this for 2 years, and in the 
process. I have testified in front of Congressman Issa with the 
Oil Pollution Act responsibility, and how we have been 
paralyzed.
    If I could take the picture that we have all heard today--
and my congressman, Steve Southerland and Congressman Miller 
have hit it right on the head--this is about giving us a chance 
to pull back in. This is not a handout. This is not moving 
dollars that should be shifted back into the trust funds there. 
These five States were grossly impacted by the acts and 
negligence of others. We have been held, from the very 
beginning as local officials, paralyzed by OPA.
    Congressman Young hit it very clear to me a moment ago. It 
was what they had at hand in 1990. And there were certainly 
excellent opportunities and things written in that. We have to 
make the changes that make us whole. The folks that I sit 
beside and the folks that are working, everyone is working 
hard. We have got different trust funds, trustees, everyone 
working. But what I want you guys to--and ladies--to understand 
is that it is so fragmented.
    Right now, for example, in the NRDA process, if you look at 
what is happening within our States, each State received $100 
million, each State has a trustee that has the ability to 
overlook it. And they are doing yeoman's work on that process. 
As a local official in the State of Florida, we have sunshine 
laws where everything is accountable and transparent. I cannot 
look at what those NRDA projects are behind the scenes, because 
of confidentiality agreements with BP. To me, that is not 
acceptable in the process.
    What I ask this committee to do is we understand--I can sit 
here and tell you the oystermen in Franklin County, their 
resources, their ability to make a living were devastated. You 
have heard this from the different Members that are here. I 
have an aquatic level one preserve in my county with scallops, 
one of the few areas in it. As Steve indicated, he has got 
different counties with coastal areas. This is about economics. 
And you do hear a lot about the issues of the different States. 
Louisiana, by far, took it on the nose on the environmental 
side. My State took 2 million pounds of product in Escambia 
County, 400 pounds of product in my county. We have product. 
And if we had the last tropical storm--I am still getting tar 
balls and tar mats that are coming there.
    So, I think I would ask this committee to understand that 
there is a balance between economics and the economy that we 
have got to do. These funds and this transfer of dollars, 
instead of going to the general trust fund, will empower and 
allow our folks to come in.
    President Obama sent in the Chamber of Commerce I would 
probably say maybe, I don't know, 6 months into the event. They 
did excellent work, drilling down into the counties that I 
serve with. But I don't know where that data went. How are we 
going to take that template and show that there is no 
redundancy on the environmental and on the economic side?
    But this is an opportunity to put our citizens back to 
work, protect our shores, and have best practices that never 
happen again. So I ask that you hear our hearts, as much as our 
dialogue, and the fact that we were paralyzed. We do need best 
practices to review. OPA needs changes in the process that 
occur. We need these dollars to make sure that the research is 
done.
    All of the services and all of the academia and all of the 
research is very fragmented. There is no central clearinghouse 
where we, as non-scientists, can make interpretations and give 
to our citizens where things are. I hear reports of fish with 
skin lesions, or I hear the shrimp industry is not there. I see 
what it is. We need your support in bringing all those academic 
and scientific--to come to us, where we can make decisions and 
work with the oil industry to have best practices and change 
OPA, that local officials are never empowered.
    But as my congressman said, and certainly Congressman 
Miller, the economics cannot be forgotten here.
    And I appreciate your time, Mr. Landry, to allow me to 
speak from a local perspective, because I think it is critical 
that you are our partner, the State is our partner. I have got 
a Governor that wants to move jobs. And we need your help to be 
able to do that.
    Mr. Landry. Well, thank you. And I can tell you--I sit 
right next to your congressman on both this committee and in 
Natural Resources. And this is something that is very important 
to him. And I believe that he is committed to fulfilling 
everything that you requested here today.
    Mr. Williams. Thank you, sir.
    Mr. Landry. Next we will have Dr. Weisberg, University of 
South Florida.
    Dr. Weisberg, you have 5 minutes.
    Mr. Weisberg. Thank you. Honorable committee members and 
guests, it is my privilege to comment today on H.R. 3096. My 
testimony will be somewhat different, because I am going to 
focus on the Gulf of Mexico, itself. I guess I am going to 
focus on the 5 percent of the bill, instead of the 95 percent 
of the bill.
    While the Deepwater Horizon spill continues to be costly, I 
concur with the recent NRC report that the full impacts of the 
spill are unknown, and will be expressed over years to decades. 
I also question whether H.R. 3096 will facilitate definitive 
answers to the questions being posed. I will attempt to explain 
shortcomings and offer suggestions for improvements.
    H.R. 3096 is precise, administratively, but imprecise on 
how the ocean system works. For instance, fish neither organize 
like regional councils, nor by State and Federal water 
boundaries. The Caribbean, Gulf of Mexico, and southeastern 
United States are not separate marine ecosystems, because they 
are connected by the Loop Current, the Florida current, and the 
Gulf Stream.
    Similarly, while 3- or 9-mile limits distinguish State from 
Federal waters, fish spend their life histories in both of 
these regions. Ecology is, therefore, all about connectivity, 
connectivity in space, time, and across trophic levels.
    Ecology begins with the ocean circulation, uniting 
nutrients with light, fueling primary productivity, and 
distributing water properties. This demands that the Gulf of 
Mexico be studied as a system if we are to better understand 
how it works, assess damages to it, and facilitate and improve 
environmental stewardship.
    An automobile provides an analogy. With mechanical, 
electrical, and fuel systems, an automobile cannot be fixed if 
one does not know how its pieces work individually and 
together, as a system.
    Referenced throughout H.R. 3096 are projects and programs 
that would restore and protect natural resources, ecosystems, 
fisheries, et cetera. Toward this end, the plan is to 
incorporate the President's Gulf Coast Restoration Task Force 
report, which lists four goals and actions. These actions, 
however, are mostly directed toward regions peripheral to the 
Gulf of Mexico versus the Gulf of Mexico itself. As such, the 
actions cannot achieve the goals.
    For instance, beach water quality may have nothing to do 
with local inputs. Instead, water quality may be due to the 
transport of materials from points distant from the beach. Red 
tide offers a case in point, as does the movement of Gag 
Grouper larvae. The reality is that few coastal ocean processes 
are local. Most entail remote connections.
    If these connections are not understood, then the goals 
cannot be met. Even the progression of oil deposition on the 
gulf beaches followed predictable connectivity rules. But these 
concepts are neither included in the task force report, nor in 
H.R. 3096. Whereas, a robust scientific foundation as 
referenced, the basis for that foundation is missing.
    The shortcomings discussed above are echoed in the NRC 
report which states, ``A mechanistic understanding of and model 
for complex linkages and interdependencies of the ecosystem 
being studied would be of immense value in analyzing ecosystem 
services.''
    The coastal ocean is particularly important, because that 
is where society meets the sea. How it works must be 
understood, if we are to predict the consequences of human 
actions and distinguish these from natural occurrences. Such 
understanding comes through observations and hypothesis 
testing. Hence the need for a coordinated program of ocean 
observing and modeling. Only in this manner will we be better 
prepared for future accidents, or become better environmental 
stewards.
    Fisheries provide a focal point. If we can understand 
fisheries, then we can make application to other topics. In 
other words, to do fisheries right we must do all else right. 
All is predicated on understanding how the ocean system works, 
and the connections thereof. The problem is big, requiring 
coordination between observations and science-based models, 
many of which already exist. Benefit will derive from 
empowering those who actually pioneered such studies, and who 
have demonstrated performance through peer-reviewed 
publications.
    We should sustain and systematically build upon what is 
scientifically defensible. But I am concerned about the level 
of funding. Five percent of the trust fund is to be split 
between the program and the fisheries and ecosystems endowment. 
The program will have five centers of excellence, each with 
foci within at least one of five enumerated topics. But of 
these five topics, only one addresses how the Gulf of Mexico 
works. Such dilution will negate having enough funding.
    The fisheries and ecosystems endowment is also troublesome. 
We cannot understand the fish by merely studying fish. Instead, 
the fish must be viewed in the context of the system in which 
they live. The problem is one of State variable estimation with 
the fish being but one of many variables, and dependent upon 
all of them.
    Two modifications are suggested. The first is to increase 
the percentage of money targeted at sustaining and building 
coordinated observing and modeling elements aimed at 
determining how the Gulf of Mexico works. The second is to 
remove preconditions, other than mandating that monies to be 
used in a scientifically defensible manner, to be developed by 
a science steering committee, selected from the academic 
community, organized through the NRC with input from the 
agencies. Plans must be generated by those most familiar with 
the science.
    I appreciate the laudable intent of the task force, the 
agencies, and the drafters of H.R. 3096. With modification, we 
can provide a lasting legacy of benefit to the Gulf States and 
the Nation. Thank you.
    Mr. Landry. Thank you, Dr. Weisberg.
    And it gives me a great privilege to introduce one of my 
constituents from down in south Louisiana, a guy who is right 
on the coast who has seen firsthand the impact of this, not 
only environmentally but economically as well. Mr. Mike Voisin, 
Motivatit Seafoods, Houma, Louisiana.
    Mr. Voisin. Thank you, Congressman. It is nice to have a 
congressman pronounce my name correctly. It is good to be with 
you today. My name is Mike Voisin. I am pleased to have this 
opportunity to appear before you today on several factors 
impacting the seafood production jobs in my home State of 
Louisiana.
    In order to give you the most accurate perspective on this 
issue, I will be wearing my business hat. Since 1971 I have 
owned and operated Motivatit Seafoods in Houma, Louisiana. My 
business is an oyster farming, seafood harvesting, processing, 
and distribution company. But my 40-year career in Louisiana 
fisheries goes well beyond that.
    My family came to Louisiana in 1770, after having gotten 
kicked out of France and then kicked out of Canada, and then 
down to Louisiana. And hopefully Deepwater Horizon won't kick 
us out of Louisiana. I am a seventh generation oyster harvester 
and an eighth generation of my family is poised to take that 
business over.
    2010 was an incredibly challenging and emotional year in 
the seafood community. We had over 40 closures and openings in 
our harvest areas, and a 90- to 120-day period, moving capital 
from one part of a State to another part of the State with 
closures, and throwing product back after closures would occur 
on a moment's notice.
    Since 1982 I have served as a trustee for the Gulf and 
South Atlantic Fisheries Foundation and the Southeastern 
Fisheries Association, and the National Fisheries Institute, 
among other organizations. The Gulf of Mexico and the State 
waters associated with it produce one-third of all domestically 
caught fisheries production in the United States. And in my 
association with each of these organizations I have advocated 
for developing a strong and sustainable commercial fishing 
community. That is why I am here today in support of RESTORE 
Act, H.R. 3096.
    The Louisiana seafood community has faced its share of 
environmental and economic challenges in recent years, most 
notably with the horrific hurricane seasons of 2005 and 2008, 
the Deepwater Horizon spill in 2010, and this past summer 
severe Mississippi River flooding. Fishing is a livelihood that 
has been under attack from environmental regulations, natural 
disasters, and resource depletion. In the absence of concerted 
action, this oil spill could be one of our challenging blows 
for the fishermen and the processors in the Gulf States.
    First, it is imperative to recognize the natural resources 
of our culture and heritage has relied on to feed families for 
many generations is not something you can put a simple dollar 
value on. It is a tradition that has been threatened. It has 
forced U.S. fishery production into a downward spiral. In my 
written testimony I have included two charts provided by the 
National Marine Fisheries Service that outlines employment in 
both recreational and commercial fisheries across the gulf from 
2006 to 2009.
    Secondly, Louisiana's economy is highly dependent on a 
strong seafood supply chain. And under current law, the natural 
resource damage assessment that has been spoken of today a lot 
can take anywhere from 10 to 20 years before efforts can begin 
addressing recovery needs for our natural fishery resources. 
This is time in the seafood community we simply do not have.
    Al Sunseri, a good friend of mine, owner of P&J Oysters, is 
also a competitor. I welcome his competition to keep our 
community healthy and compete in a global marketplace. But he 
is struggling. He can't supply all his wholesale customers 
because production is down by an estimated 50 percent. Next 
year's projections point to an oyster harvest equivalent to 35 
percent of what we had been producing. His workforce will 
likely absorb the impact of the decline in sales. Our future is 
uncertain.
    The only way to move forward is to calm the waters of fear 
in the fishing community, first and foremost by passing the 
RESTORE Act. The gulf coast claims facility is the first step, 
but it is plainly not enough to help ensure our community's 
survival over the medium and long term. The RESTORE Act will 
provide funds more quickly to respond to rebuilding those areas 
that our resources need to be able to thrive, once again.
    At a time when Congress is justifiably looking high and low 
for measures to assist in job creation and generate real 
economic recovery, the RESTORE Act is a concrete immediate step 
that could be taken to do just that. I urge you to act quickly 
in the passage and implementation of this very important act. 
Thank you.
    Mr. Landry. Thank you, Mr. Voisin. And I am going to let my 
southern manners get the best of me and allow the Ranking 
Member, Mrs. Napolitano, to ask the first series of questions. 
Mrs. Napolitano?
    Mrs. Napolitano. Well, and that is very kind of you, sir, 
and I really appreciate it. I would like to start off with Dr. 
Weisberg.
    In your testimony you discussed the need for more monies to 
be dedicated to research and monitoring in the gulf to better 
assess long-term damages and ensure restoration dollars are 
better spent. You also mentioned the preconceptions and 
preconditions about how this money should be spent, how they 
should be removed. Can you explain what you mean in a little 
more detail?
    Mr. Weisberg. Yes, thank you. I guess, said succinctly, we 
cannot restore--when I say ``restore,'' I see there are two 
elements to this bill. One is economics and the other is, say, 
ecological. And I am referring to the ecological.
    We cannot restore what we don't understand. We don't 
understand how the Gulf of Mexico works, as a system. The 
science isn't there. The long-term observations are not there. 
We have no baseline, for instance, of what to restore to. And 
so I am very concerned that the bill has a lot of language like 
``ecology,'' like ``restoration,'' like ``fisheries,'' but with 
no definition on how to actually go about doing that.
    And given the 5 percent of the monies that are to be 
apportioned, half in one way, half in another way, and a 
dilution within that apportionment, I just don't see how there 
is enough money to do what needs to be done.
    Mrs. Napolitano. OK. But I am not sure whether there are 
any universities doing any studies to be able to understand, 
especially along the gulf coast, to be able to have some of 
that information. I am sure some of them have already made some 
attempt to be able to study the gulf, the sea, the things 
that--because I know we have with--for rivers dams, an 
organization of universities that are doing those studies for 
those. Is there--there isn't any such thing?
    Mr. Weisberg. No, there certainly is. I don't mean to imply 
that there is not. There is. However, the way in which these 
programs are operating are not aimed at determining how the 
Gulf of Mexico works, as a system. They are stovepiped. And so 
we have never really approached the Gulf of Mexico the way it 
really needs to be approached.
    Mrs. Napolitano. OK. But is there a concerted effort, then, 
to be able to understand? If there is already studies, and you 
can then line up the impact this has had on identifying how it 
was versus how it is and how it should be.
    Mr. Weisberg. Those studies are going on. But they are not 
comprehensive enough, they are not sustained, and they are not 
geared to really come up with the answers that we need, going 
forward.
    Mrs. Napolitano. Then I can understand that, because I have 
been involved with other kinds of studies because I am ranking 
member in water and power, and we deal with some of these 
studies for--through the agencies, Natural Resources.
    But--and I can understand there is never enough money for 
the R&D. That is a given. So somehow we need to be able--I 
don't know whether this bill has any segment in there to be 
able to say we need to know more about--with the R&D. There is 
universities getting Federal money. Maybe that is one of the 
things we should impose upon them to study, especially those 
universities that are in that area, and then come back and 
offer--a coalition of them--to be able to look at and add to 
your studies.
    The second question, sir. Can you talk more about the 
potential problems you see in studying fisheries, but not 
studying them within the larger ecosystem, and how does this 
affect the value of the research that may be done?
    Mr. Weisberg. That is a very good question, and I 
appreciate that. Fisheries, historically, have been studied not 
as fisheries oceanography, but as fisheries biology. So the 
fisheries have been studied on the basis of the fish, and not 
enough on the basis of the natural environment in which the 
fish actually make their living.
    And so, I mentioned that the Magnuson-Stevens Act has 
councils. Those councils have specific regionality. But the 
fish don't know that regionality. The fish live in the 
environment. States look within 9 miles or 3 miles. The Federal 
waters go out to the EEZ. Every fish we put on a sandwich 
actually migrates between the State waters and the Federal 
waters. And so the way that we have actually been studying our 
fisheries needs to be looked at again in a more comprehensive 
way, so that we are studying the fish as they truly make their 
living in the environment.
    Mrs. Napolitano. As an industry, as an industry.
    Mr. Weisberg. Yes.
    Mrs. Napolitano. Because it is an industry.
    Mr. Weisberg. Yes.
    Mrs. Napolitano. Are there any suggestions--very quickly 
and to the point--that you might make to make this bill a 
little better?
    Mr. Weisberg. Yes, that is----
    Mrs. Napolitano. Quickly.
    Mr. Weisberg. OK. I think that we need more money going 
into the R&D.
    Mrs. Napolitano. Right.
    Mr. Weisberg. And whether it comes out of this bill or it 
comes out of the NRDA process----
    Mrs. Napolitano. But not split.
    Mr. Weisberg. Right. And I also would not split it the way 
it is split right now.
    Mrs. Napolitano. OK.
    Mr. Weisberg. And I would like to see a different process 
come into place.
    Mrs. Napolitano. OK.
    Mr. Weisberg. I was a little disappointed after we met in 
the President's task force, and----
    Mrs. Napolitano. Thank you for your answer, and very 
quickly. And thank you for your indulgence.
    Mr. Graves, in your statement you said the RESTORE Act is 
simply taking the supplemental and environmental projects--
process under the Clean Water Act, and giving control of that 
process to the States. But as you know, there are provisions in 
the bill that would allow the Clean Water Act fines to be used 
for that purpose, beyond environmental restoration projects.
    If we are talking about using these fines assessed under 
the Clean Water Act to restore the degradation of the gulf 
caused by the Deepwater Horizon spill, then wouldn't it be 
appropriate to limit the use of these fines, should we 
authorize it, to environmental restoration projects, as you 
described, to protect tourism, ecosystem, et cetera?
    In other words, should we not spend this money--should we 
not be spending this money, the supplemental environment 
project money, on things like casinos, conventions, et cetera?
    Mr. Graves. Congresswoman, I think you make a very good 
point. And you are certainly more familiar with the sausage-
making process than I am. I will just say that on behalf of the 
State of Louisiana we certainly would make a commitment to 
spend our money or limit our money, money's uses, as consistent 
with the existing process, meaning we would limit our----
    Mrs. Napolitano. But who determines--I am sorry, but I went 
over time--who determines how that money is spent at the State 
level?
    Mr. Graves. As I recall--and I think in the case of the 
State of Louisiana--that would be determined by the CPRA 
through a public process. The State agency where I work, 
through a public process.
    Mrs. Napolitano. So there wouldn't be any legislators 
taking some of that fund to balance the budget and do some 
other things with it?
    Mr. Graves. Ma'am, we have done a very extensive master 
plan prioritization process. It is based solely upon science. I 
couldn't tinker with it if I wanted to. And that would make the 
determination on the priorities.
    Mrs. Napolitano. That is what they said in California. 
Thank you, Mr. Chair.
    Mr. Landry. You are welcome. My question--actually, I would 
like to start with Mr. Voisin for just a second, and then I 
have a question for you, Mr. Graves.
    But this weekend I--and as I watched the SEC championship 
game I was able to procure a sack of oysters from a--off of a 
boat, purchased it off of a oyster boat. You don't--I mean you 
recommend that the gulf oysters are safe today?
    Mr. Voisin. Absolutely, Congressman. One of our real 
challenges today in the seafood community is that, generally 
speaking, the Gulf States get it, and they understand that 
there has been a lot of media, post-event, for 2 years--close 
to, well, a year-and-a-half now. But outside of that, the rest 
of the States have not had that same opportunity to keep up on 
all of the work that has been done.
    All of the seafood that has been harvested in the States 
was always safe. There were significant closures, as I 
mentioned in my testimony, when there was even a hint that 
potentially oil would be in an area. All of the sampling that 
NOAA and FDA and the States did showed no hydrocarbon level 
increases at all of any concern that went beyond what would be 
considered an action level.
    So, oysters, crab, shrimp, fish from the Gulf of Mexico are 
safe, they are high-quality, they are available. And the 
challenge today is getting back out in America and helping 
those individuals who have kind of shied away from it, remind 
them that it is a healthy way to go, and to eat more seafood 
from the gulf coast.
    We are working at that. Congress gave a few dollars to the 
Gulf States Marine Fisheries Commission. We set up a Gulf 
States seafood and marketing coalition that I chair, and we are 
trying to reintegrate ourselves back into the national market. 
But it has been a real challenge, Congressman.
    Mr. Landry. And, of course, the viability of the commercial 
fishing industry, which--you know, I think it is important to 
recognize--and it has bene said multiple times--the importance 
of the gulf coast economy to the rest of the Nation when, in 
fact, 30 percent of our domestically caught seafood comes out 
of that area. I mean that is a third of all of our seafood out 
of a relatively small area.
    And so, I am sure that you are here today because you feel 
that this bill helps not only to move in a direction of 
restoration, but continued viability for both the seafood 
industry and seafood living in the Gulf of Mexico.
    Mr. Voisin. Yes, sir, Congressman. And as I said, you know, 
our family left France and some of them went to Canada and some 
of them came straight to Louisiana. We really don't want to 
leave Louisiana. One of our challenges is Louisiana is leaving 
us. And if we don't implement a lot of the restoration that is 
needed today in Mr. Graves's master plan, Louisiana will leave 
us.
    And what will that do? That--most of the seafood that is 
produced in the whole Gulf of Mexico spends part of its life in 
the estuaries of south Louisiana. So that means that the food 
that feeds America, or part of the food that feeds America, 
will not be able to be produced, as we lose that coastal 
estuary. We need to restore it and maintain it, so that we can 
provide that viable seafood production in south--in the Gulf of 
Mexico.
    Mr. Landry. Well, I thank you. I have eaten my oysters last 
week, I am going to have shrimp stew this week.
    Mr. Graves, could you expand your comment on gap--the gap 
filler comment that you had made earlier?
    Mr. Graves. Yes, sir. The Oil Spill Liability Trust Fund, 
I--it is our view that it is not designed to be the single 
bill-payer for--in response to oil spills. I mean that is the 
responsibility of the responsible party. That is the liability 
of the responsible party.
    I think just as if my neighbor was carrying out some 
irresponsible activities and had threatened to burn down my 
house, I wouldn't sit there and stockpile money in a fund, 
ready to respond to my house burning down.
    Just as--let me put it this way. I mean the Cuba comment 
was brought up earlier. The Oil Spill Liability Trust Fund, the 
funds are in there derived from domestic producers. I don't 
know that it is their liability for what goes on in Cuba. And I 
think an analogy there would be that we have a threat from an 
ICBM being launched from China to the United States. We don't 
sit there and put money in a trust fund, waiting to come in and 
clean up the damage from the missile. Instead, what we do is we 
have bilateral negotiations. We take proactive steps, in terms 
of missile defense systems or regulatory oversight, in the case 
of offshore production.
    And I think that you have a deterrence issue, as well, and 
I think that is the--in the case of domestic production, the 
fines.
    The reality is that the best use of those funds is making 
proactive mitigation investments. And that is what this bill is 
trying to do. And in the case of Louisiana, we want to restore 
our coast, we want to restore the fragmented marsh, so if there 
is another spill or another hurricane, we are not going to have 
the damage that we are currently experiencing from the 
Deepwater Horizon disaster.
    Mr. Landry. And one last comment before we just--we wrap 
up. Isn't it correct that putting these projects into play, 
especially in Louisiana, would help to further protect and make 
future--and hopefully we don't have to use that term ``future 
spills,'' no one wants spills to happen again--but should 
there--an accident, and we can't guarantee that it won't happen 
again--but if we spend this money wisely and implement the 
projects properly, we can actually help mitigate future 
cleanups through proactive means.
    Mr. Graves. There is no question. I am trying to remember 
the exact number, but if you measure our coastline smoothly 
from Texas to Mississippi, it is about 800 miles. If you 
measure the tidal shoreline, meaning all the erosion--eroded 
coastline that has occurred in your district, Congressman, we 
actually have 7--800 miles of tidal shoreline, because of this 
gross erosion, this coastal wetlands loss that has occurred.
    And so, when the oil spill came, we weren't fighting the 
oil or trying to stop the oil on 800 miles. We literally were 
trying to come in and protect 40 million feet of shoreline. 
There is not 40 million feet of boom in the world. And so you 
are exactly right.
    And that is how Louisiana is committing to invest these 
dollars, is to restore our coast, and to put it back in a more 
uniform manner that would help to mitigate damages from future 
spills--and hurricanes, by the way.
    Mr. Landry. Thank you, Mr. Graves. And I would like to 
again thank the panel for taking the time out of their busy day 
to come here and give us your testimony.
    And this committee will now stand adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

</pre></body></html>
